<html>
<title> - Confirmation Hearings On Federal Appointments</title>
<body><pre>[Senate Hearing 113-515, Part 9]
[From the U.S. Government Publishing Office]


                                              S. Hrg. 113-515, Pt. 9

             CONFIRMATION HEARINGS ON FEDERAL APPOINTMENTS

=======================================================================

                                HEARINGS

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

              JUNE 4, JUNE 24, JULY 24, and JULY 29, 2014

                               ----------                              

                           Serial No. J-113-1

                               ----------                              

                                 Part 9

                               ----------                              

         Printed for the use of the Committee on the Judiciary
         
         
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         
         
         
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
24-286 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d5b2a5ba95b6a0a6a1bdb0b9a5fbb6bab8fb">[email&#160;protected]</a>        
         


                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
           Kristine Lucius, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              

                        JUNE 4, 2014, 10:02 A.M.

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......     2
Leahy, Hon. Patrick J. Leahy, a U.S. Senator from the State of 
  Vermont........................................................     1
    prepared statement...........................................   185

                       STATEMENTS OF THE NOMINEES

Witness List.....................................................    13
Crawford, Hon. Geoffrey W., Nominee to be U.S. District Judge for 
  the
  District of Vermont............................................     3
    biographical information.....................................    14
Firestone, Hon. Nancy B., Nominee to be Judge of the U.S. Court 
  of Federal Claims..............................................     4
    biographical information.....................................    64
Griggsby, Lydia Kay, Nominee to be Judge of the U.S. Court of 
  Federal Claims.................................................     4
    biographical information.....................................   121
Halkowski, Thomas L., Nominee to be Judge of the U.S. Court of 
  Federal Claims.................................................     4
    biographical information.....................................   154

                               QUESTIONS

Questions submitted to Hon. Geoffrey W. Crawford by Senator 
  Grassley.......................................................   186
Questions submitted to Hon. Nancy B. Firestone by Senator 
  Grassley.......................................................   190
Questions submitted to Lydia Kay Griggsby by Senator Grassley....   191
Questions submitted to Thomas L. Halkowski by Senator Grassley...   192

                                ANSWERS

Responses of Hon. Geoffrey W. Crawford to questions submitted by 
  Senator Grassley...............................................   193
Responses of Hon. Nancy B. Firestone to questions submitted by 
  Senator Grassley...............................................   200
Responses of Lydia Kay Griggsby to questions submitted by Senator 
  Grassley.......................................................   202
Responses of Thomas L. Halkowski to questions submitted by 
  Senator Grassley...............................................   204

        LETTER RECEIVED WITH REGARD TO HON. GEOFFREY W. CRAWFORD

American Bar Association, May 21, 2014, letter...................   207

                            C O N T E N T S

                              ----------                              

                       JUNE 24, 2014, 10:18 A.M.

                    STATEMENTS OF COMMITTEE MEMBERS

Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa,
    prepared statement...........................................   500
Schumer, Hon. Chuck, a U.S. Senator from the State of New York 
  presenting Brenda K. Sannes, Nominee to be District Judge for 
  the Northern District of New York..............................   215

                               PRESENTERS

Baldwin, Hon. Tammy, a U.S. Senator from the State of Wisconsin 
  presenting Hon. Pamela Pepper, Nominee to be District Judge for 
  the Eastern District of Wisconsin..............................   214
Cardin, Hon. Benjamin L., a U.S. Senator from the State of 
  Maryland
  presenting Pamela Harris, Nominee to be U.S. Circuit Judge for 
  the Fourth Circuit.............................................   211
Johnson, Hon. Ron, a U.S. Senator from the State of Wisconsin 
  presenting Hon. Pamela Pepper, Nominee to be District Judge for 
  the Eastern District of Wisconsin..............................   213
Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
  Maryland
  presenting Pamela Harris, Nominee to be U.S. Circuit Judge for 
  the Fourth Circuit.............................................   209

                       STATEMENTS OF THE NOMINEES

Witness List.....................................................   233
Harris, Pamela, Nominee to be U.S. Circuit Judge for the Fourth 
  Circuit........................................................   218
    biographical information.....................................   234
McCarthy, Patricia M., Nominee to be Judge of the U.S. Court of 
  Federal Claims.................................................   228
    biographical information.....................................   420
Pepper, Hon. Pamela, Nominee to be U.S. District Judge for the 
  Eastern District of Wisconsin..................................   226
    biographical information.....................................   302
Sannes, Brenda K., Nominee to be U.S. District Judge for the 
  Northern District of New York..................................   227
    biographical information.....................................   385
Somers, Hon. Jeri Kaylene, Nominee to be Judge of the U.S. Court 
  of Federal Claims..............................................   229
    biographical information.....................................   455

                               QUESTIONS

Questions submitted to Pamela Harris, Hon. Pamela Pepper, and 
  Brenda K. Sannes by Senator Cruz...............................   530
Questions submitted to Pamela Harris by:
    Senator Grassley.............................................   503
    Follow-up questions submitted by Senator Grassley............   528
Questions submitted to Patricia M. McCarthy by Senator Grassley..   526
Questions submitted to Hon. Pamela Pepper by Senator Grassley....   518
Questions submitted to Brenda K. Sannes by Senator Grassley......   522
Questions submitted to Hon. Jeri Kaylene Somers by Senator 
  Grassley.......................................................   527

                                ANSWERS

Responses of Pamela Harris to questions submitted by:
    Senator Cruz.................................................   556
    Senator Grassley.............................................   531
    Follow-up questions submitted by Senator Grassley............   559

Responses of Patricia M. McCarthy to questions submitted by 
  Senator Grassley...............................................   581
Responses of Hon. Pamela Pepper to questions submitted by:
    Senator Cruz.................................................   569
    Senator Grassley.............................................   562
Responses of Brenda K. Sannes to questions submitted by:
    Senator Cruz.................................................   579
    Senator Grassley.............................................   571
Responses of Hon. Jeri Kaylene Somers to questions submitted by 
  Senator Grassley...............................................   585

             LETTERS RECEIVED WITH REGARD TO PAMELA HARRIS

Adler, Amy, et al., June 20, 2014, letter........................   590
American Bar Association, May 9, 2014, letter....................   588
Culvahouse, Arthur B., Jr., et al., June 23, 2014, letter........   603
Garre, Gregory G., et al., June 20, 2014, letter.................   599
Leadership Conference on Civil and Human Rights, The, June 23, 
  2014, letter...................................................   597
National Women's Law Center (NWLC), June 23, 2014, letter........   607
Rolfe, Harold E., June 27, 2014, letter..........................   605

           LETTER RECEIVED WITH REGARD TO HON. PAMELA PEPPER

American Bar Association, May 2, 2014, letter....................   609

            LETTER RECEIVED WITH REGARD TO BRENDA K. SANNES

American Bar Association, May 9, 2014, letter....................   611

                            C O N T E N T S

                              ----------                              

                       JULY 24, 2014, 10:15 A.M.

                     STATEMENT OF COMMITTEE MEMBER

Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......   621

                               PRESENTERS

Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania presenting Wendy Beetlestone, Nominee to be 
  District Judge for the Eastern District of Pennsylvania; Mark 
  A. Kearney, Nominee to be District Judge for the Eastern 
  District of Pennsylvania; Joseph F. Leeson, Jr., Nominee to be 
  District Judge for the Eastern District of Pennsylvania; and 
  Gerald J. Pappert, Nominee to be District Judge for the Eastern 
  District of Pennsylvania.......................................   617
McCaskill, Hon. Claire, a U.S. Senator from the State of Missouri 
  presenting Stephen R. Bough, Nominee to be District Judge for 
  the Western District of Missouri...............................   614
Toomey, Hon. Patrick J., a U.S. Senator from the State of 
  Pennsylvania presenting Wendy Beetlestone, Nominee to be 
  District Judge for the Eastern District of Pennsylvania; Mark 
  A. Kearney, Nominee to be District Judge for the Eastern 
  District of Pennsylvania; Joseph F. Leeson, Jr., Nominee to be 
  District Judge for the Eastern District of Pennsylvania; and 
  Gerald J. Pappert, Nominee to be District Judge for the Eastern 
  District of Pennsylvania.......................................   615

                       STATEMENTS OF THE NOMINEES

Witness List.....................................................   633
Beetlestone, Wendy, Nominee to be U.S. District Judge for the 
  Eastern
  District of Pennsylvania.......................................   623
    biographical information.....................................   725
Bonilla, Armando Omar, Nominee to be Judge of the U.S. Court of 
  Federal Claims.................................................   623
    biographical information.....................................   687
Bough, Stephen R., Nominee to be U.S. District Judge for the 
  Western
  District of Missouri...........................................   622
    biographical information.....................................   634
Kearney, Mark A., Nominee to be U.S. District Judge for the 
  Eastern District of Pennsylvania...............................   624
    biographical information.....................................   807
Leeson, Joseph F., Jr., Nominee to be U.S. District Judge for the 
  Eastern District of Pennsylvania...............................   625
    biographical information.....................................   856
Pappert, Gerald J., Nominee to be U.S. District Judge for the 
  Eastern District of Pennsylvania...............................   626
    biographical information.....................................   909

                               QUESTIONS

Questions submitted to Wendy Beetlestone, Stephen R. Bough, Mark 
  A. Kearney, Joseph F. Leeson, Jr., and Gerald J. Pappert by 
  Senator Cruz...................................................  1006
Questions submitted to Wendy Beetlestone by Senator Grassley.....   987
Questions submitted to Armando Omar Bonilla by Senator Grassley..   986
Questions submitted to Stephen R. Bough by:
    Senator Grassley.............................................   980
    Follow-up questions submitted by Senator Grassley............  1003
    Follow-up questions II submitted by Senator Grassley.........  1005
Questions submitted to Mark A. Kearney by Senator Grassley.......   991
Questions submitted to Joseph F. Leeson, Jr., by:
    Senator Feinstein............................................  1009
    Senator Franken..............................................  1007
    Senator Grassley.............................................   995
Questions submitted to Gerald J. Pappert by Senator Grassley.....   999

                                ANSWERS

Responses of Wendy Beetlestone to questions submitted by:
    Senator Cruz.................................................  1155
    Senator Grassley.............................................  1148
Responses of Armando Omar Bonilla to questions submitted by 
  Senator Grassley...............................................  1144
Responses of Stephen R. Bough to questions submitted by:
    Senator Cruz.................................................  1030
    Senator Grassley.............................................  1011
    Responses to follow-up questions submitted by Senator 
      Grassley...................................................  1022
    Responses to follow-up questions II submitted by Senator 
      Grassley...................................................  1028
    attachment...................................................  1033
Responses of Mark A. Kearney to questions submitted by:
    Senator Cruz.................................................  1165
    Senator Grassley.............................................  1157
Responses of Joseph F. Leeson, Jr., to questions submitted by:
    Senator Cruz.................................................  1179
    Senator Feinstein............................................  1182
    Senator Franken..............................................  1168
    Senator Grassley.............................................  1172
Responses of Gerald J. Pappert to questions submitted by:
    Senator Cruz.................................................  1193
    Senator Grassley.............................................  1185

            LETTER RECEIVED WITH REGARD TO WENDY BEETLESTONE

American Bar Association, June 16, 2014, letter..................  1218

            LETTERS RECEIVED WITH REGARD TO STEPHEN R. BOUGH

Adams, Robert T., October 21, 2014, letters......................  1206
American Bar Association, January 17, 2014, letter...............  1196
Bartle, Matthew V., October 16, 2014, letter.....................  1212
Bradshaw, Jean Paul, II, October 16, 2014, letter................  1213
Kilroy, John M., Jr., October 20, 2014, letters..................  1198
Mullen, John L., October 17, 2014, letter........................  1216
Sanders, William H., Jr., October 16, 2014, letter...............  1214
Watson, Maurice A., November 12, 2014, letter....................  1210

             LETTER RECEIVED WITH REGARD TO MARK A. KEARNEY

American Bar Association, June 16, 2014, letter..................  1220

          LETTER RECEIVED WITH REGARD TO JOSEPH F. LEESON, JR.

American Bar Association, June 16, 2014, letter..................  1222

           LETTERS RECEIVED WITH REGARD TO GERALD J. PAPPERT

American Bar Association, June 16, 2014, letter..................  1224
Coyne, Gerald J., July 22, 2014, letter..........................  1227
Sorrell, William H., June 19, 2014, letter.......................  1226

                            C O N T E N T S

                              ----------                              

                        JULY 29, 2014, 9:41 A.M.

                               PRESENTERS

Menendez, Hon. Robert, a U.S. Senator from the State of New 
  Jersey
  presenting Madeline Cox Arleo, Nominee to be District Judge for 
  the
  District of New Jersey.........................................  1232
Murphy, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut presenting Victor Allen Bolden, Nominee to be 
  District Judge for the
  District of Connecticut........................................  1230
Paul, Hon. Rand, a U.S. Senator from the State of Kentucky 
  presenting David J. Hale, Nominee to be District Judge for the 
  Western District of Kentucky, and Gregory N. Stivers, Nominee 
  to be District Judge for the Western District of Kentucky......  1229

                       STATEMENTS OF THE NOMINEES

Witness List.....................................................  1245
Arleo, Madeline Cox, Nominee to be U.S. District Judge for the 
  District of New Jersey.........................................  1234
    biographical information.....................................  1246
Bolden, Victor Allen, Nominee to be U.S. District Judge for the 
  District of Connecticut........................................  1235
    biographical information.....................................  1300
Hale, David J., Nominee to be U.S. District Judge for the Western 
  District of Kentucky...........................................  1236
    biographical information.....................................  1390
Stivers, Gregory N., Nominee to be U.S. District Judge for the 
  Western District of Kentucky...................................  1236
    biographical information.....................................  1444

                               QUESTIONS

Questions submitted to all of the Nominees by Senator Cruz.......  1499
Questions submitted to Madeline Cox Arleo by:
    Senator Grassley.............................................  1481
    Senator Lee..................................................  1500
Questions submitted to Victor Allen Bolden by:
    Senator Grassley.............................................  1485
    Senator Lee..................................................  1501
Questions submitted to David J. Hale by:
    Senator Grassley.............................................  1491
    Senator Lee..................................................  1503
Questions submitted to Gregory N. Stivers by:
    Senator Grassley.............................................  1495
    Senator Lee..................................................  1504

                                ANSWERS

Responses of Madeline Cox Arleo to questions submitted by:
    Senator Cruz.................................................  1512
    Senator Grassley.............................................  1505
    Senator Lee..................................................  1514
Responses of Victor Allen Bolden to questions submitted by:
    Senator Cruz.................................................  1525
    Senator Grassley.............................................  1515
    Senator Lee..................................................  1528
Responses of David J. Hale to questions submitted by:
    Senator Cruz.................................................  1539
    Senator Grassley.............................................  1533
    Senator Lee..................................................  1542

Responses of Gregory N. Stivers to questions submitted by:
    Senator Cruz.................................................  1550
    Senator Grassley.............................................  1544
    Senator Lee..................................................  1552

           LETTER RECEIVED WITH REGARD TO MADELINE COX ARLEO

American Bar Association, June 27, 2014, letter..................  1553

          LETTERS RECEIVED WITH REGARD TO VICTOR ALLEN BOLDEN

American Bar Association, June 16, 2014, letter..................  1555
Barnett, John W., June 18, 2014, letter..........................  1557
Dubois, Mark A., July 25, 2014, letter...........................  1558
Esserman, Dean M., July 29, 2014, letter.........................  1562
Fisher, Timothy S., July 25, 2014, letter........................  1568
Hibson, Emmet P., Jr., Esq., July 28, 2014, letter...............  1560
Hinton, Robert C., July 28, 2014, letter.........................  1566
Malech, Steven B., July 28, 2014, letter.........................  1567
Pepe, Louis R., July 28, 2014, letter............................  1559
Prout, William H., Jr., July 25, 2014, letter....................  1573
Ribeiro, G. Evelise, July 28, 2014, letter.......................  1561
Ricci, Frank, Lieutenant, July 25, 2014, letters.................  1564
Saxton, Brad, July 28, 2014, letter..............................  1569
Schratz, Lorraine M., M.D., July 29, 2014, letter................  1563
Vitale, Wayne A., M.B.A./S.D.B.L., July 26, 2014, letter.........  1571

              LETTER RECEIVED WITH REGARD TO DAVID J. HALE

American Bar Association, June 20, 2014, letter..................  1575

           LETTER RECEIVED WITH REGARD TO GREGORY N. STIVERS

American Bar Association, June 20, 2014, letter..................  1577

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

McConnell, Hon. Mitch, a U.S. Senator from the State of Kentucky,
    prepared statement with regard to David J. Hale, Nominee to 
      be District Judge for the Western District of Kentucky, and 
      Gregory N. Stivers, Nominee to be District Judge for the 
      Western District of Kentucky...............................  1579
Rockefeller, Hon. John D., IV, a U.S. Senator from the State of 
  Kentucky,
    prepared statement with regard to David J. Hale, Nominee to 
      be District Judge for the Western District of Kentucky.....  1582

                     ALPHABETICAL LIST OF NOMINEES

Arleo, Madeline Cox, Nominee to be U.S. District Judge for the 
  District of New Jersey.........................................  1234
Beetlestone, Wendy, Nominee to be U.S. District Judge for the 
  Eastern
  District of Pennsylvania.......................................   623
Bolden, Victor Allen, Nominee to be U.S. District Judge for the 
  District of Connecticut........................................  1235
Bonilla, Armando Omar, Nominee to be Judge of the U.S. Court of 
  Federal Claims.................................................   623
Bough, Stephen R., Nominee to be U.S. District Judge for the 
  Western
  District of Missouri...........................................   622
Crawford, Hon. Geoffrey W., Nominee to be U.S. District Judge for 
  the
  District of Vermont............................................     3
Firestone, Hon. Nancy B., Nominee to be Judge of the U.S. Court 
  of Federal Claims..............................................     4
Griggsby, Lydia Kay, Nominee to be Judge of the U.S. Court of 
  Federal Claims.................................................     4
Hale, David J., Nominee to be U.S. District Judge for the Western 
  District of Kentucky...........................................  1236
Halkowski, Thomas L., Nominee to be Judge of the U.S. Court of 
  Federal Claims.................................................     4
Harris, Pamela, Nominee to be U.S. Circuit Judge for the Fourth 
  Circuit........................................................   218
Kearney, Mark A., Nominee to be U.S. District Judge for the 
  Eastern District of Pennsylvania...............................   624
Leeson, Joseph F., Jr., Nominee to be U.S. District Judge for the 
  Eastern District of Pennsylvania...............................   625
McCarthy, Patricia M., Nominee to be Judge of the U.S. Court of 
  Federal Claims.................................................   228
Pappert, Gerald J., Nominee to be U.S. District Judge for the 
  Eastern District of Pennsylvania...............................   626
Pepper, Hon. Pamela, Nominee to be U.S. District Judge for the 
  Eastern District of Wisconsin..................................   226
Sannes, Brenda K., Nominee to be U.S. District Judge for the 
  Northern District of New York..................................   227
Somers, Hon. Jeri Kaylene, Nominee to be Judge of the U.S. Court 
  of Federal Claims..............................................   229
Stivers, Gregory N., Nominee to be U.S. District Judge for the 
  Western District of Kentucky...................................  1236

 
NOMINATIONS OF HON. GEOFFREY W. CRAWFORD, NOMINEE TO BE DISTRICT JUDGE 
  FOR THE DISTRICT OF VERMONT; HON. NANCY B. FIRESTONE, NOMINEE TO BE 
JUDGE OF THE COURT OF FEDERAL CLAIMS; LYDIA KAY GRIGGSBY, NOMINEE TO BE 
JUDGE OF THE COURT OF FEDERAL CLAIMS; AND THOMAS L. HALKOWSKI, NOMINEE 
               TO BE JUDGE OF THE COURT OF FEDERAL CLAIMS

                              ----------                              


                        WEDNESDAY, JUNE 4, 2014

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in
Room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy and Grassley.

          OPENING STATEMENT OF HON. PATRICK J. LEAHY,
            A U.S. SENATOR FROM THE STATE OF VERMONT

    Chairman Leahy. Well, good morning. Today we are going to 
hear from four very well qualified judicial nominees--one to 
the district court in the State of Vermont, without being 
overly parochial, and three to the U.S. Court of Federal 
Claims.
    I am happy to welcome Vermont Supreme Court Justice 
Geoffrey Crawford. Justice Crawford has significant criminal 
and civil experience. He was a Vermont trial court judge for 11 
years; he recently became an Associate Justice of the Vermont 
Supreme Court. In fact, the Governor's comment to me when I 
recommended Justice Crawford to the President was, ``Hey, you 
are taking one of our best Supreme Court Justices.'' He 
formerly was a partner in a Burlington law firm. And I am glad 
to see Jerry O'Neill here in the audience. Justice Crawford 
earned his B.A., cum laude, from Yale and his J.D., cum laude, 
from Harvard Law School.
    I recommended Justice Crawford to President Obama after he 
was vetted and recommended to me by Vermont's nonpartisan 
Judicial Nominating Commission. I did not know him before this 
process, but I read the report of those who did the work of the 
Nominating Commission, and then I met for an extended time, 
Kristine Lucius, Chief Counsel, and myself, and John Tracy, the 
head of the Vermont office, with Justice Crawford, and I was 
struck by his brilliance, his compassion, his humility, and his 
devotion to his family. He has earned a stellar reputation in 
Vermont's legal community and from those who appeared before 
him as a careful jurist who understands the effects that legal 
rulings have on people's lives. I have no doubt that once 
confirmed he will bring the same understanding and impartiality 
to the Federal judiciary in Vermont. We are just one district, 
but he will be sitting in Rutland, Vermont.
    Then we have three nominees to serve on the Court of 
Federal Claims: Judge Nancy Firestone, who is well known to the 
most important member of this Committee, Kristine Lucius; 
Thomas Halkowski; and Lydia Griggsby, who has served on my 
Judiciary Committee staff since 2006 and currently serves as my 
Chief Counsel for Privacy and Information Policy. I recommended 
Lydia to the President for the position because I know her 
intellect and good judgment will make her a fine judge. And 
that is what I told the President. Before Lydia came to work 
with me on the Committee, she served in the Justice Department. 
She tried several matters before the Court of Federal Claims. I 
did tell her father this morning that the one reason I might 
vote against her is to keep her here on the Committee. But I 
will proudly vote for her.
    Judge Nancy Firestone has served with distinction on the 
U.S. Court of Federal Claims since 1998, and I am sure she will 
continue that with another 15-year term.
    And Mr. Halkowski is a principal at Fish and Richardson; 
that is a law firm specializing in intellectual property law in 
Wilmington, Delaware. He started off clerking on the Court to 
which he is nominated for Judge Roger Andewelt. He also clerked 
for then-Chief Judge Helen Nies on the Federal Circuit, so once 
he is confirmed, his career will have gone full circle.
    I welcome you all, but I will turn first, of course, to my 
friend and colleague Senator Grassley.

           OPENING STATEMENT OF HON. CHUCK GRASSLEY,
             A U.S. SENATOR FROM THE STATE OF IOWA

    Senator Grassley. First, I congratulate today's nominees, 
and I know your families and friends that are here are proud of 
you. And, of course, professionally it is an important 
milestone in all of your careers, and so I welcome you. I will 
not go into the details he did, the Chairman did, but I can 
associate myself with those remarks and point out that I know 
today's hearing is of particular significance for the Chairman 
because I have had an opportunity to have a lot of Iowans in 
the same place that you are from Vermont for the Chairman. And 
so it is important for the Chairman as well as it is for you.
    Not only do we have a nominee for the District of Vermont, 
but we also have a nominee for the Court of Federal Claims, Ms. 
Griggsby, whom we all know very well. She has been a counsel on 
the Chairman's staff, and just like I have people leave my 
staff, he is going to miss you as well when you go to this very 
important position you have been appointed to. I know that you 
joined the Committee staff after being both in the Department 
of Justice as well as the U.S. Attorney's Office.
    We know Lydia well. She has worked on many important 
Committee matters, including the Electronic Communications 
Privacy Act, the Freedom of Information Act, and other privacy 
issues. Through that work Lydia has a well-earned reputation of 
being diligent, very thoughtful, and professional.
    Ms. Griggsby, you are now in a seat that several of your 
colleagues have occupied before you, fielding questions from 
all of us.
    So once again, even though I only spoke about two of the 
four, congratulations to all of you.
    Chairman Leahy. Thank you very much.
    Please, all four of you, stand and raise your right hand. 
Do you solemnly swear that the testimony you are about to give 
in this matter will be the truth, the whole truth, and nothing 
but the truth, so help you God?
    Justice Crawford. I do.
    Judge Firestone. I do.
    Ms. Griggsby. I do.
    Mr. Halkowski. I do.
    Chairman Leahy. Let the record show that all responded in 
the affirmative.
    We will begin with you, Justice Crawford. If you have any 
statement you would like to make, please go ahead, and you may 
introduce your family.

        STATEMENT OF HON. GEOFFREY W. CRAWFORD, NOMINEE
        TO BE DISTRICT JUDGE FOR THE DISTRICT OF VERMONT

    Justice Crawford. Yes, Senator, I would like to thank the 
Members of the Committee for their time and attention. I would 
like to thank you in particular for the trust that you have 
placed in me. And I would like to introduce my family, if I 
might.
    My wife, Leslie, is here, and my children: my daughter, 
Jocelyn, and her son, Matthew; and her husband and older 
daughter, Evelyn, who is 3, are home in Wisconsin. My son 
Tobias and my son Elliott; and my daughter-in-law, Christine, 
and her son, James; and my son, Nicholas.
    And with me also is my dear friend and former law partner, 
Jerry O'Neill.
    Chairman Leahy. Who I might add has been a friend of mine 
for decades, also.
    [The biographical information of Justice Crawford appears 
as a submission for the record.]
    Chairman Leahy. I would note to the--and I am not trying to 
get rid of anybody from here, but please feel free with young 
children, if you need to take a break, you can go right 
straight through that door, and there is a table there. But I 
was delighted to meet all of them before.
    That was not a hint.
    [Laughter.]
    Chairman Leahy. My wife and I just had a chance to spend a 
week with two of our five grandchildren, and I enjoyed every 
single second of it, even though at times the decibel level was 
such that the satellites went out of orbit.
    [Laughter.]
    Chairman Leahy. Judge Firestone, did you----

         STATEMENT OF HON. NANCY B. FIRESTONE, NOMINEE
           TO BE JUDGE OF THE COURT OF FEDERAL CLAIMS

    Judge Firestone. Thank you. I want to thank the Committee 
and the President for this honor, and I would like to just 
quickly introduce the staff that makes my work possible as a 
judge: my judicial assistant, Diana Perez-Kidwell; Richard 
Hagerman and Steven Reilly, who are my two law clerks. It is my 
pleasure to have them here with me today.
    [The biographical information of Judge Firestone appears as 
a submission for the record.]
    Chairman Leahy. Thank you.
    Ms. Griggsby, did you wish to say something and introduce 
family members?

            STATEMENT OF LYDIA KAY GRIGGSBY, NOMINEE
           TO BE JUDGE OF THE COURT OF FEDERAL CLAIMS

    Ms. Griggsby. I would. Thank you very much, Chairman Leahy, 
and thank you for your very gracious and kind introduction. 
Thank you, Ranking Member Grassley, as well for your kind 
introduction and words.
    I am very honored and blessed to have my father with me 
today, Professor William L. Griggsby, from Pikesville, 
Maryland, seated behind me. My mother, the late Mary Kate 
Rainier Griggsby, passed away in 2011. She is with us in spirit 
today, and I want to honor her as well.
    I am also joined by many mentors and friends and 
colleagues. I would like to acknowledge Dr. Wyneva Johnson--
please stand--seated behind me, a long-time mentor and attorney 
with the Department of Justice.
    I also have several friends farther back in the audience, 
Delta Sigma Theta sorority sisters, club sisters, and many 
other mentors. I thank them all for their love and support. And 
many other family members who are watching via the Webcast 
today across the country.
    [The biographical information of Ms. Griggsby appears as a 
submission for the record.]
    Chairman Leahy. I remember the sadness of everybody when 
your mother passed. I remember that time. And I have a feeling 
she is watching.
    Mr. Halkowski.

           STATEMENT OF THOMAS L. HALKOWSKI, NOMINEE
           TO BE JUDGE OF THE COURT OF FEDERAL CLAIMS

    Mr. Halkowski. Thank you, and thank you to the President 
for this truly humbling honor of being nominated to serve on 
the U.S. Court of Federal Claims. And thank you, Chairman Leahy 
and Ranking Member Grassley, for convening this hearing and the 
opportunity to be heard.
    I have here just a few folks: my oldest son, Mick, who is 
just recently graduated, he is headed down to Texas to work as 
a chemical engineer at Dow. And my mother and father, Eleanor 
and Phil Halkowski, traveled here from my home town in St. 
Francis, Wisconsin. I could go on about their sacrifice and 
hard work, but I will simply say that I am indebted to them for 
everything.
    Also here are my mother- and father-in-law, Michael and 
Kathy Philps, who traveled here from California to lend their 
support, as well as my brother- and sister-in-law, D'Arcy and 
Cecilia Philps, along with their children, Miranda and Spencer.
    Unfortunately, my wife, Dana, could not be here, which is 
ironic because without her love and support I myself would not 
be here. But she is attending the high school graduation of our 
youngest son, Benjamin, back in Unionville, Pennsylvania, which 
is going on at this very moment. I am assured, though, from my 
son, Ben, that I am not missing anything. He is going to be 
doing the exact same thing in 4 years at the University of 
Pittsburgh. And thanks to this hearing, that promise is now on 
the record.
    [Laughter.]
    Chairman Leahy. And we will make sure he gets a copy of 
this record.
    Mr. Halkowski. My daughter, Scout, also, unfortunately, 
cannot be here due to commitments back at her college in 
Pennsylvania.
    I have many relatives, two brothers, three sisters, back in 
Wisconsin, as well as many others whose support I appreciate. 
One person I do need to mention, my Grandma Nuffky back in 
Wisconsin. She will be 99 years old on June 14th. She assures 
everyone, however, to hold off on the celebration until next 
year, because she wants to do her 100th birthday big time.
    [Laughter.]
    Mr. Halkowski. Finally, there are just two people I need to 
acknowledge who are no longer with us today: Judge Roger 
Andewelt as well as Chief Helen Nies. Judge Andewelt served on 
the U.S. Court of Federal Claims, gave me my first job out of 
law school, and was the best mentor I could have ever hoped 
for. And Judge Nies similarly provided--generously provided her 
time and wisdom. And I miss them both, but I carry with me the 
lessons that they taught me over the years.
    And with that, I thank you again for convening this 
hearing, and I look forward to the opportunity to address your 
questions.
    [The biographical information of Mr. Halkowski appears as a 
submission for the record.]
    Chairman Leahy. Well, thank you.
    Justice Crawford, I had occasion to talk with the President 
shortly after I had met with you, and I told him of your 
appreciation for his nomination. And I told him that this was 
one nomination he will not have to worry about.
    You served as a Vermont State court trial judge for 11 
years, and you have been on the Supreme Court now since last 
year. What lessons do you take from a State court as you 
transfer over to the Federal court?
    Justice Crawford. I think the principal lesson is twofold: 
one is the real need to stay close to the facts in every case, 
to really try and understand what is going on; but even more 
important, in dealing with the litigants, to try and keep it 
fresh, to try and bring something new to each case, not to 
become routine or jaded, to try and really engage with each 
case anew. And the State trial court judges do a fine job, I 
think, in both those regards.
    Chairman Leahy. I enjoyed my years as a trial lawyer and as 
a prosecutor. But I left that time with an abiding feeling that 
courts' judges should think not just of the people who are in 
there all the time--the prosecutors are, a well-known litigant 
like Mr. O'Neill is, others--but the people who are there, this 
is their one and only time they may be before the court. Can 
you give us assurance that everybody who comes in your court, 
no matter what their political party or their economic status 
or whether they are plaintiff or defendant, government or 
defendant, that they will be treated the same?
    Justice Crawford. Senator, I can make that commitment. That 
has been my effort over the course of the last 12 years, and I 
intend to continue as I started out. For many people we are in 
the courts the face of government that they deal with very 
directly, and it is crucial that they feel that they have been 
heard and that they have been treated fairly and listened to 
with care.
    Chairman Leahy. One of my predecessors as Chairman of this 
Committee was Senator Strom Thurmond. We had different 
philosophies on a number of things, but one thing I always 
agreed with. He always said to somebody coming on to the 
Federal bench that, you know, it is a lifetime appointment, you 
can do anything you want, but do not forget you are there for 
everybody in that courtroom. I am not even going to ask you 
that question because I have watched enough about you to know 
that is the way you will be.
    And the last question, which is sort of the standard one, 
the Second Circuit opinions are binding on the district court, 
as are the Supreme Court's. Do you have any difficulty in 
applying stare decisis even though you might wonder in a 
particular case, ``What the heck were they thinking?''
    Justice Crawford. Not at all, Senator. I work within and I 
have worked within a system of authority where I look to and 
respect the judgments of the courts above us.
    Chairman Leahy. Well, thank you.
    Judge Firestone, you have presided over, I am told by Ms. 
Lucius, more than 700 cases. You must have had--in some ways it 
must be routine, but it certainly was not when you first came 
there. What are some of the difficulties you had to overcome?
    Judge Firestone. Well, I would say that the jurisdiction of 
the Court of Federal Claims is quite broad. It ranges from tax 
to contracts to Indian claims and so forth. One of the big 
advantages that Court has is we have the Justice Department 
representing the United States in every case, and as an alum of 
that organization, they do an excellent job in not only 
advocating but I would say educating the Court. And we have had 
excellent practitioners on the other side.
    And so when you are new as a judge, you spend a lot of time 
educating yourself as to what is the law, and you spend a lot 
of time ensuring that you understand the arguments of the 
parties. But, interestingly enough, it is a very high quality 
of representation that appears on the Court, and with hard work 
you get to learn different things. But every case actually 
comes to you, I would say, pretty new. Although issues 
generally repeat, for the most part the reason they are in 
front of us is because they could not resolve it on their own 
and there is some twist.
    And so that is actually what keeps the job fresh and 
challenging, as it has been for the last 15 years and, if 
confirmed, hopefully for the next.
    Chairman Leahy. So you find it still interesting when you 
come into the courtroom.
    Judge Firestone. I wake up every morning challenged and 
enjoying the job. I would say it has been the greatest 
privilege of my life to serve on that court.
    Chairman Leahy. I know the feeling in the job I have.
    Judge Firestone. I share it in a different way, but, yes, I 
love the work.
    Chairman Leahy. And, Ms. Griggsby, we know you so well from 
your past decade in the Senate, both the Ethics and the 
Judiciary Committees, and a trial attorney at the Department of 
Justice and U.S. Attorney's Office in DC and private 
litigation. Sort of somewhat along with what I was saying to 
Justice Crawford, how do you feel about how people should be 
treated when they come in the courtroom? You are used to 
walking into this room, for example. You used to walk into 
courtrooms. But a lot of people coming in there, it is their 
first time, maybe their only time. How do you feel about that?
    Ms. Griggsby. Thank you, Chairman Leahy, for that question. 
During my decade as a Justice Department attorney and my decade 
here in the Senate, I have always felt that you should treat 
people fairly, with impartiality, and with courtesy. That has 
always been my practice as an attorney. It was my practice as 
an attorney appearing before the court, and that is the 
practice I would have as a judge. Every citizen should feel 
welcome and that they are going to be treated fairly and 
receive justice under the law.
    Chairman Leahy. And one of the questions I had for you, Mr. 
Halkowski, you already answered when you spoke about your 
mentors as judges. But even having worked for judges, clerks 
and whatnot, you have now been in private litigation, and all 
of a sudden you are not rising when the judge comes into the 
courtroom. Everybody is going to be rising when you come in the 
courtroom. That can be a heady feeling. But how do you handle 
that transition and do it in such a way that you saw it being a 
litigant and now you would be an impartial trier of facts?
    Mr. Halkowski. Simply, if I am so fortunate to be 
confirmed, keep in mind one word really, and that is, 
``respect''--respect for the limited role of the courts amongst 
the branches of Government, and respect for the law and 
applying stare decisis, and so you just simply apply the law to 
the facts of each case. And, finally, as Ms. Griggsby alluded 
to, respect for each of the parties that come before you and 
keep an open mind and listen to them and do your best to 
provide justice.
    Chairman Leahy. Senator Grassley.
    Senator Grassley. Yes, I am going to start out with Justice 
Crawford and go across the table. I am going to ask you about 
some issues dealing with sentencing, because you have spoken on 
that. And at this point I do not find any fault, but I want to 
give you an opportunity to expand.
    In 2013, you spoke to the press about sentencing practices 
in your State. At that time you expressed the opinion that 
judges have been, as you put it, ``oversentencing'' criminal 
defendants. You also mentioned that many of those defendants 
should be placed into drug or mental health courts and that 
judges and prosecutors should focus on treatment and 
reconciliation instead of incarceration. So these would be--
expand on those statements by saying what--by my asking what do 
you mean when you stated that Vermont's criminal defendants 
have been oversentenced. And I have one more question.
    Justice Crawford. Of course, sir. Thank you. It is an 
important issue. Within the State court system, we see two 
kinds of criminal defendants, particularly in the area of drug 
addiction, drug abuse, and drug trafficking. We see the people 
that make it their living to harm our communities by selling 
drugs, and for those people I do not see an important change. I 
think the sentencing practices have been correct.
    For people who are addicted and are more customers than 
traffickers, we have had success in Vermont. I have worked for 
several years in the drug court, and we have seen real change 
in people's behaviors, in their ability to support their 
families, in their ability to return to the rest of us as 
honest citizens. And it is that group that I think can be 
directed toward treatment, directed toward drug court-type 
programs, which are no walk in the park--they are strict, and 
if you fail in your treatment, you spend the weekend in jail. 
It is almost a sterner model than simply putting people on 
probation or jailing them for short periods of time.
    So what has interested me is a commitment from the courts 
for people who are addicted to redirecting them so that we can 
get them back in our midst as productive people.
    Senator Grassley. What are your thoughts on mandatory 
minimums? And can you tell us a little bit about your 
experiences with limitations on sentencing discretion within 
the Vermont judicial system?
    Justice Crawford. Within the State system, we have only a 
handful of mandatory minimums. They represent the decision, the 
serious decision of the legislature to treat certain offenses 
with particular seriousness and care. And I have always 
respected that decision and imposed the mandatory minimum 
because the legislature is in charge of that decision, and I 
would expect to continue to do so in the event that I am 
confirmed here.
    Senator Grassley. Then that would bring me to the Supreme 
Court's Booker decision on Federal Sentencing Guidelines. Of 
course, they are no longer mandatory, so let me ask you a 
couple questions, and then a third one, but two at first.
    What is your view on the guidelines? And do you believe 
that the guidelines have resulted in oversentencing of criminal 
defendants?
    Justice Crawford. I cannot tell you in a numbers kind of a 
way what the result of the guidelines has been within the 
Federal system. What I can tell you is that what I like about 
them is it brings out into the open the concerns about 
sentencing, about deterrence, about rehabilitation, about 
punishment, which are involved in every sentencing decision. On 
the State court side, those things are not always discussed in 
an open way in court. Sentencing guidelines compel the judge 
and the defendant, his attorney, and the Government to talk 
about them in an open way and to apply them in a way which is 
more uniform from case to case. So I think those are important 
positive aspects of the Sentencing Guidelines.
    Senator Grassley. In the cases of nonviolent drug offenders 
or drug offenders with little or no criminal history, do you 
believe that downward departures would be warranted under the 
guidelines? Or do you think that such individuals would be 
better off in a drug court setting?
    Justice Crawford. What I can tell you, Senator, is that I 
have seen success for people that meet in the State system--
that people that meet those criteria in a drug court setting, 
where they are involved for 6 or 12 months, meeting weekly, 
speaking as you and I are, with the judge, reporting on their 
progress. Whether that translates easily into the Federal 
system it would be difficult for me to say. I have seen it work 
person to person in the State court system.
    Senator Grassley. Okay. Then my last series of questions 
for you. You mentioned the importance of treatment and 
reconciliation during your comments to the press in 2013. Would 
you tell us what you meant by that statement? And then let me 
quickly add to that. If confirmed, would you focus on treatment 
and reconciliation when sentencing criminal defendants in the 
Federal system? And if so, how would that focus affect 
sentencing in your courtroom?
    Justice Crawford. What I have tried to do, Senator, in my 
sentencing practices is to look at each person as best I can as 
an individual and to make an individual judgment about whether 
incarceration is required, whether a mandated treatment program 
is going to be sufficient, whether a mixture of those two is 
appropriate. And it would be my intention to continue to--
within the framework of the Sentencing Guidelines, to continue 
to try and make that judgment, separate out the business people 
who are harming our communities from the people who have fallen 
into drug addiction and treat those two as different types of 
problems.
    Senator Grassley. Now, the rest of you are going to feel 
like you are not very important if I do not ask you as many 
questions.
    [Laughter.]
    Senator Grassley. But I am not going to, so do not take it 
personally.
    For you, Lydia, the Court of Federal Claims adjudicates 
cases across a broad range of subject matters. Since 2006 you 
have served the Committee by providing advice relating to the 
Freedom of Information Act, the Privacy Act, the Electronic 
Communications Privacy Act. Could you please share how this 
experience might help prepare you for the Federal Claims Court 
if confirmed?
    Ms. Griggsby. Yes, thank you, Senator, for that question. 
During my time on the Committee, I have worked on a number of 
complex legal issues, including, as you mentioned, ECPA reform 
and FOIA reform. In the context of that work, I have had to 
work very closely with co-counsel and opposing counsel, various 
offices on the Committee, as well as stakeholders with a 
variety of different perspectives and competing interests. I 
think I have always done that in a very fair and open-minded 
way, and I think that those skills have equipped me well to be 
a fair and open-minded judge, if confirmed to the Court of 
Federal Claims.
    Senator Grassley. Okay. And, Ms. Firestone, you have now 
served at least one term. Aside from the knowledge of how the 
Court works, what have you learned during your first term that 
would assist you in a second term, if confirmed? And that does 
not mean things have to be any different, but I just wondered 
if they would be. And let me follow that up with how, if at 
all, would you change your approach in cases from what you have 
learned during your first time.
    Judge Firestone. Well, Senator, I hope after 15 years I 
have become a bit more efficient, and so I will say that there 
is--I do not intend to change the way I judge cases in any way. 
The oath is the same, and I will abide by that and look at each 
case individually and decide each one on its merits based on 
the facts and the law.
    What it has allowed me to do after 15 years is to become 
more of an educator with regard to the Court, and so I have the 
opportunity now to do things with regard to the Judicial 
Conferences of our Court, with regard to our Advisory 
Committee, that allows me to take some of the experience that I 
have had and share that with new judges, and to work with 
judges and members of the bar to improve the administration of 
justice, which I think helps, having had enough experience that 
I can judge whether or not I think those recommendations will 
be valid. And I hope to continue to do that work as well in the 
next 15 years.
    Senator Grassley. Okay. In your view, Ms. Firestone, are 
there particular challenges facing the Court of Claims? Do you 
see any areas where improvement is needed? And this could be 
from two standpoints. One, is there any suggestions you have 
for Congress to make any changes? Or, number two, any changes 
that you would see that the Court itself could make?
    Judge Firestone. Well, Senator Grassley, I appreciate the 
question. I think that the Court is always looking to find ways 
to improve its administration internally, and I do not have 
any--we are constantly, by virtue of now the whole new change 
in electronic filings and things like that, the efficiency of 
the court system has actually improved markedly.
    I would say that with regard to things for Congress I leave 
that to people different than myself to make those suggestions, 
and, indeed, that is why we have advisory committees and so 
forth who involve outside attorneys as well as Justice 
Department attorneys to make those types of suggestions to the 
Congress.
    Senator Grassley. My first question is--I am from Iowa, and 
you evidently have Midwest roots. Where is St. Francis, 
Wisconsin?
    [Laughter.]
    Mr. Halkowski. Thank you, Senator.
    Senator Grassley. And how big is it?
    Mr. Halkowski. Thank you, Senator, and I can handle that 
question. It is just south of Milwaukee. It is actually a 
suburb of Milwaukee. It is right along Lake Michigan, and its 
population--well, now it is a little bit smaller, but probably 
around 10,000.
    Chairman Leahy. You did a heck of a lot better on that 
answer than I ever could.
    [Laughter.]
    Senator Grassley. Well, I was about ready to tell you, even 
though I am close to Wisconsin, about all I think about is 
Madison and Milwaukee.
    Mr. Halkowski. There you go.
    Senator Grassley. And do not tell the Green Bay Packers.
    Mr. Halkowski. We all suffer with having to root for Green 
Bay.
    Senator Grassley. Now, to be a little more serious, the 
Federal Claims Court adjudicates cases across a broad range of 
subject matters. What experience do you have in tax refund 
suits, takings cases, Government contract cases, contract 
claims, or other claims that come before the Court? And if you 
do not have any experience, I am not asking that in a negative 
way. I just want to know how you feel you are prepared for it.
    Mr. Halkowski. Sure. Thank you again, Senator. I was 
fortunate to clerk at the Court starting out my legal career, 
so I actually had a bit of experience in a broad range of 
cases, including tax cases and Government contracts.
    I then went to the court of appeals and had, again, some 
experience with cases that are appealed from the Court of 
Federal Claims to the Federal Circuit.
    Next, I went to the Justice Department where I actually 
litigated many, many cases in front of the U.S. Court of 
Federal Claims, including takings cases and some breach of 
trust cases involving Native American claims.
    So I have a broad array of experience, and then most 
recently I have been in private practice and focused on 
intellectual property and patent claims, which, again, is a 
type of claim that is brought before the Court.
    There are, of course, some areas that I have less 
experience in, and those I would just simply dig in and work a 
bit harder on.
    Senator Grassley. During your time at Justice, you defended 
the Federal Government in cases where plaintiffs sought 
compensation under the Fifth Amendment for alleged 
uncompensated taking. How would you transition from defender of 
the Federal Government to a neutral arbitrator?
    Mr. Halkowski. Again, thank you, Senator. My focus as a 
judge, should I be fortunate enough to be confirmed, would be 
strict fidelity to the law and, again, respecting the parties 
that come before me and listening with an open mind and then 
applying the law as it is set forth by the Supreme Court as 
well as the Federal Circuit, and rendering a decision based on 
that and taking into account no other factor.
    Senator Grassley. You do not have any problem with that 
transition?
    Mr. Halkowski. I do not, Your Honor. I will say also that--
and maybe I was unusual. I do not know. But when I worked at 
the Justice Department, I always saw my role as not to win the 
case but to come up with an outcome that would render justice, 
because I felt as someone who was not only representing the 
Government but also representing the citizens, that would be 
appropriate.
    Senator Grassley. Last, congratulations to all of you.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you. And one of the questions you 
asked Justice Crawford made me think, and I am now being 
parochial as a Vermonter. You talked about our drug courts and 
basically diversion programs and so on. Has it not been our 
experience in Vermont that doing that rather than doing a one-
size-fits-all in the court system has actually saved Vermont 
taxpayers a huge amount of money and it has kept a more 
productive society? Is that correct?
    Justice Crawford. I think that has been the case, Senator.
    Chairman Leahy. And looking at the budgets--oh, Senator 
Grassley. I am going to keep the hearing--no, no. I am going to 
keep the hearing record--I just wanted you to know I will keep 
the hearing record open until Friday.
    And now that you have all had this enormously tough 
grilling, we will stand in adjournment. Thank you very much.
    Justice Crawford. Thank you.
    Judge Firestone. Thank you.
    Ms. Griggsby. Thank you.
    Mr. Halkowski. Thank you.
    [Whereupon, at 10:40 a.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



   NOMINATIONS OF PAMELA HARRIS, NOMINEE TO BE CIRCUIT JUDGE FOR THE 
 FOURTH CIRCUIT; HON. PAMELA PEPPER, NOMINEE TO BE DISTRICT JUDGE FOR 
  THE EASTERN DISTRICT OF WISCONSIN; BRENDA K. SANNES, NOMINEE TO BE 
   DISTRICT JUDGE FOR THE NORTHERN DISTRICT OF NEW YORK; PATRICIA M. 
McCARTHY, NOMINEE TO BE JUDGE OF THE COURT OF FEDERAL CLAIMS; AND HON. 
JERI KAYLENE SOMERS, NOMINEE TO BE JUDGE OF THE COURT OF FEDERAL CLAIMS

                              ----------                              


                         TUESDAY, JUNE 24, 2014

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:18 a.m., in
Room SD-226, Dirksen Senate Office Building, Hon. Chuck 
Schumer, presiding.
    Present: Senators Schumer, Coons, Blumenthal, Grassley, and 
Cruz.
    Senator Schumer. The hearing will come to order, and to 
help our colleagues get on with their busy schedules, Senator 
Grassley will put his opening statement in the record.
    [The prepared statement of Ranking Member Grassley appears 
as a submission for the record.]
    Senator Schumer. We will proceed immediately to Senator 
Mikulski of Maryland.

           PRESENTATION OF PAMELA HARRIS, NOMINEE TO
          BE CIRCUIT JUDGE FOR THE FOURTH CIRCUIT, BY
  HON. BARBARA A. MIKULSKI, A U.S. SENATOR FROM THE STATE OF 
                            MARYLAND

    Senator Mikulski. Good morning, Senator Schumer, Senator 
Grassley. Senator Cardin and I want to thank Senators Leahy and 
Grassley for scheduling this hearing and Senator Schumer for 
graciously agreeing to preside.
    Today Senator Cardin and I are delighted and honored to 
bring to your attention a nominee for the Fourth Circuit, 
Pamela Harris. You are really going to like Pamela Harris as 
you get to know her, and I hope we will get to vote for her.
    Senator Cardin and I recommended her to President Obama 
with the utmost confidence because of her ability, her talent, 
and her competence. The ABA agrees with us. They gave her the 
highest rating and said she was unanimously well qualified.
    Today, as we bring her to your attention, know that we take 
our advise-and-consent responsibility very seriously. I have 
four criteria: absolute integrity, judicial competence and 
temperament, a commitment to core principles of the 
Constitution, and a history of civic engagement in Maryland.
    Pamela Harris is the embodiment of these principles. She 
has dedicated her practice and her career to furthering the 
practice of appellate lawyer activity and enhancing the role 
that law plays in the public interest. She is an outstanding 
nominee and will be absolutely an asset to the Fourth Circuit.
    Ms. Harris' career spans academia, private practice, and 
Government with a common thread of public service and public 
commitment. We are proud to say that Ms. Harris is a homegrown 
girl. Although born in Connecticut, she has called Maryland her 
home since she was a child, graduating from our public schools 
and then she went on to Yale. We forgive her for that, but we 
welcomed her back when she came. At Yale, she received both her 
bachelor's and law degrees.
    She then went on to complete a clerkship for the D.C. 
Circuit Court, and she was also a clerk for Justice Stevens on 
the Supreme Court. Serving at the Department of Justice's 
Office of Legal Counsel, she then spent 10 years appearing on a 
regular basis before the Supreme Court. This is a woman who has 
extensive appellate experience while counsel and then partner 
to O'Melveny and Myers, taking on very complex issues.
    She has a distinguished career in academia, being a 
professor at the University of Pennsylvania Law School, at the 
Harvard Appellate Practice Clinic, and later at Georgetown. She 
served as the executive director of the Supreme Court 
Institute.
    But at the same time, she found her way back to Maryland 
and stayed very close to people. Whether it was a pro bono 
appellate clinic at O'Melveny, to work with Maryland's public 
defender on an amicus curiae brief involving Montgomery County 
Schools, or other activity, she has worked to enhance law, to 
give her services pro bono, and to work with people.
    I believe her temperament is such that you are going to 
find her a keen mind and yet a humble personality, unusual 
among many lawyers at that level, but she then is an unusual 
nominee. She comes with a great personal narrative that I know 
she will share with you, an incredible resume, but a real 
commitment to our Constitution and our core principles. I think 
she would be a great asset in the Fourth Circuit.
    So I hope that the Committee reports her favorably to the 
full Senate and we act on this expeditiously before we adjourn 
in November--in October.
    Senator Schumer. Thank you, Senator Mikulski. I got scared 
when you said November.
    [Laughter.]
    Senator Schumer. Senator Cardin.

           PRESENTATION OF PAMELA HARRIS, NOMINEE TO
          BE CIRCUIT JUDGE FOR THE FOURTH CIRCUIT, BY
   HON. BENJAMIN L. CARDIN, A U.S. SENATOR FROM THE STATE OF 
                            MARYLAND

    Senator Cardin. Chairman Schumer, Senator Grassley, thank 
you very much for the courtesy of allowing us to introduce Pam 
Harris.
    I am very proud to be a partner with Senator Mikulski in a 
process on judicial nominations in which we have an interview 
process where we try to get the very best to serve on our 
courts. And as a result of Senator Mikulski's leadership, I am 
very proud of the nominees that have been brought forward to 
this Committee by President Obama with the strong support of 
Senator Mikulski and myself.
    Pam Harris is an exceptional candidate. I have interviewed 
several candidates for judgeships. I do not think I have ever 
seen a person more suited and more qualified to sit on our 
appellate court than Pam Harris. She has devoted her entire 
career basically to appellate law and to understanding our 
judicial system. She is well qualified. She has worked in the 
executive branch. She has worked in Justice. She has worked for 
our courts as a clerk, as Senator Mikulski has pointed out. She 
is exceptionally well qualified with tremendous legal 
experience in Government, the private sector, and academia. She 
is an excellent Supreme Court litigator and in my view one of 
the best in the country for this type of practice.
    Ms. Harris has an appreciation for the rights and 
responsibilities of each branch of Government, having clerked 
at the Federal appellate courts, supervised policy initiatives 
at the Department of Justice. She has dedicated her career and 
professional life to improving the administration of justice as 
a public servant. She has demonstrated a commitment to protect 
civil rights and individual liberties through her pro bono 
work. Her roots are in Montgomery County, Maryland. She is an 
active member of her community, giving back to her local 
schools and volunteering in the community.
    Let me just tell you a little bit of background about her 
family because I think it is telling, because this truly is the 
American dream. Her grandmother was a Polish Jewish immigrant 
to the United States who valued education and worked hard to 
overcome personal adversity. Her mom put herself through law 
school with young children after a divorce and died from cancer 
a few years later. Ms. Harris herself relied in part on a Pell 
grant to attend college at Yale, and I understand that all of 
Ms. Harris' siblings are now lawyers. So it is safe to say that 
her family story and history is truly the American dream and 
the American experience, and the public service and seeking to 
uphold the rule of law runs in the blood of her family.
    You have heard Senator Mikulski talk about her 
extraordinary background, the law firms that she has worked 
for, her public career. Ms. Harris co-directed Harvard Law 
School's Supreme Court and Appellate Practice Clinic and was a 
visiting professor at Georgetown University Law School. In 
2009, Ms. Harris was named the executive director of the 
Supreme Court Institute at Georgetown, serving as executive 
director until 2010. Ms. Harris then joined the Justice 
Department Office of Legal Policy where she served as the 
Principal Deputy Assistant Attorney General until returning to 
Georgetown in 2012. She is currently a visiting professor at 
Georgetown University Law Center and a senior adviser to the 
Supreme Court Institute.
    As Senator Mikulski pointed out, it is not surprising that 
she has been given the highest qualifications by the American 
Bar Association's Standing Committee on the Federal Judiciary.
    Let me just mention one or two other points, if I might. 
First, there is a letter--and I will ask these letters be made 
part of the record.
    Senator Schumer. Without objection.
    [The letters appear as submissions for the record.]
    Senator Cardin. They are from a long list of distinguished 
lawyers who have served in Republican and Democratic 
administrations who praise Pam Harris' qualifications and urge 
the Committee to quickly confirm--recommend confirmation of her 
appointment. She has taken hundreds of cases before the Federal 
Court of Appeals and the U.S. Supreme Court, and her practice 
has been pretty evenly divided between civil and criminal 
matters, so she understands both of them exceedingly well. She 
has experience also at the State court level, so she has the 
whole package. She has the experience, criminal, civil, 
private, public; she has an incredible career for pro bono 
work.
    So I personally want to thank her, and I want to thank her 
family for being willing to serve in this capacity. We know it 
is going to be a challenge as far as the demands that will be 
on her time, and we strongly recommend her confirmation.
    Senator Schumer. Thank you, Senator Cardin. And that 
completes the introductions for Pamela Harris.
    We have five members of the bench--and I understand you 
both have busy schedules, so feel free to go on to your 
business if you would prefer that.
    Senator Mikulski. Mr. Chairman, we ask unanimous consent 
that two letters of support--one from the list of bipartisan 
legal professionals supporting Ms. Harris--be entered into the 
record, and then a letter from the National Women's Law Center 
on her----
    Senator Schumer. Without objection.
    [The letters appear as submissions for the record.]
    Senator Schumer. Okay. Good. Now we have five district 
court nominees to speak about. They are Brenda Sannes, of the 
Northern District of New York; Pamela Pepper, of the Eastern 
District of Wisconsin; Patricia McCarthy, of the Federal Court 
of Claims; and Jeri Somers, of the Federal Court of Claims. We 
will let our two guests--I want to say a few words about Ms. 
Sannes from the Northern District, but I will do that after our 
two guests say their words about Pamela Pepper. And I know that 
Senator Coons, who has graciously agreed to take over for me 
chairing this hearing, has some words to say about Patricia 
McCarthy and Jeri Somers. So if that is okay with everyone, we 
will go Johnson, Baldwin, Schumer, Coons.
    Senator Ron Johnson, of Wisconsin.

         PRESENTATION OF HON. PAMELA PEPPER, NOMINEE TO
         BE DISTRICT JUDGE FOR THE EASTERN DISTRICT OF
 WISCONSIN, BY HON. RON JOHNSON, A U.S. SENATOR FROM THE STATE 
                          OF WISCONSIN

    Senator Johnson. Thank you, Chairman Schumer, Ranking 
Member Grassley, Members of the Committee. I am here to 
recommend to the Committee another Pam, the Honorable Pamela 
Pepper, to be the United States District Judge for the Eastern 
District of Wisconsin. Pam has served with distinction as the 
current chief judge of the United States Bankruptcy Court for 
the Eastern District of Wisconsin. Although not native to our 
State, she has set down deep roots in Wisconsin, first serving 
in the office of the United States Attorney for the Eastern 
District of Wisconsin, followed by private practice in 
Milwaukee, and finally serving 9 years as a bankruptcy court 
judge.
    Pam was born in the Delta of Mississippi in a town called 
Leland. Her parents were both teachers and instilled in her an 
intellectual curiosity which has been apparent throughout her 
career. She migrated north for college and attended 
Northwestern University in Chicago, where she received a degree 
in theater. After helping a friend get through the LSAT review 
course, she realized she might want to explore other careers 
and ended up taking the LSAT herself.
    She obviously had prepared herself well because she 
performed well on the LSAT and was accepted into Cornell 
University School of Law.
    Senator Schumer. An excellent school, I might add.
    [Laughter.]
    Senator Johnson. Apparently.
    After graduation, she clerked with distinction for Judge 
Frank Johnson on the Eleventh Circuit Court of Appeals and then 
moved on to become a prosecutor in the United States Attorney's 
Office in Chicago.
    Pam is widely respected within the profession, evidenced by 
having held offices as the president of the Milwaukee Bar 
Association and the chairperson of the Board of Governors of 
the State Bar of Wisconsin. She is an instructor of national 
stature and speaks frequently on trial practice and evidence. 
She is currently an instructor at the Federal Judicial Center.
    I have had the opportunity to speak to practitioners that 
have appeared before her bankruptcy court. They have told me of 
her patience with attorneys, which is a virtue of hers they all 
value. Pam possesses a great sense of humor, which she often 
uses to put litigants at ease.
    She displays compassion in making tough decisions by 
explaining the rationale for those decisions clearly so her 
reasoning is understood by all. She has shown great dexterity 
in reacting to difficult situations in court with calm 
reasoning.
    Finally, Pam has been described as a practical judge who 
promptly resolves disputes while faithfully adhering to the 
rule of law. Pam's intellectual curiosity, her demonstrated 
ability to learn new areas of the law, and efficiently 
administer her office has convinced me she would continue to 
excel in a new role as a Federal district court judge.
    Judge Pepper has my full support, and I am happy to 
recommend her to the Senate for swift confirmation.
    I would like to conclude my remarks by thanking the hard-
working members of our bipartisan nomination commission for 
their dedication and efforts. I would also like to thank 
Senator Baldwin for her continued support of this successful 
nominating process that has once again resulted in the 
selection of a well-qualified jurist, Judge Pamela Pepper, who 
will serve the Nation and the people of Wisconsin's Eastern 
District well.
    Thank you.
    Senator Schumer. Thank you, and I thank both you and 
Senator Baldwin for your bipartisan efforts in this area.
    Senator Baldwin.

         PRESENTATION OF HON. PAMELA PEPPER, NOMINEE TO
         BE DISTRICT JUDGE FOR THE EASTERN DISTRICT OF
WISCONSIN, BY HON. TAMMY BALDWIN, A U.S. SENATOR FROM THE STATE 
                          OF WISCONSIN

    Senator Baldwin. Thank you, Chairman Schumer, Ranking 
Member Grassley, Senator Coons, and all other Members of the 
Committee who may be here today. It gives me great pleasure to 
appear before you this morning to introduce Judge Pamela 
Pepper, the President's nominee for the United States District 
Court for the Eastern District of Wisconsin. And I am proud to 
speak before you for the second time this year in support of a 
highly qualified individual nominated to fill a judicial 
vacancy in my home State of Wisconsin.
    Ensuring that the people of Wisconsin are supported by 
dedicated public servants in our judicial system has been a top 
priority of mine since I joined the Senate last year, and I am 
proud of the work that my colleague Senator Johnson and I have 
done together to advance this important goal.
    Judge Pamela Pepper has had a distinguished career as a 
judge, a Federal prosecutor, public defender, and an attorney 
in private practice, and I applaud the President for nominating 
her. She will continue her outstanding service on the bench, 
and the people of Wisconsin will benefit from having this 
experienced and dedicated public servant as a U.S. district 
judge.
    Pamela Pepper has served as the chief bankruptcy judge for 
the Eastern District of Wisconsin since 2010 and has served as 
bankruptcy judge on that court since 2005. Judge Pepper has 
also contributed significantly to the field of bankruptcy as a 
leader in the National Conference of Bankruptcy Judges and the 
American Bankruptcy Institute, and as associate editor for the 
American Bankruptcy Law Journal.
    Before assuming her position as a bankruptcy judge, Pamela 
Pepper spent 8 years as a solo practitioner engaged in criminal 
defense work, including through appointments by the Wisconsin 
State Public Defender Service and the Federal Defender Service 
of Wisconsin.
    Judge Pepper began her legal career in public service 
working for 7 years as a Federal prosecutor in the U.S. 
Attorney's Offices in Chicago and then in Milwaukee, Wisconsin.
    Prior to assuming her role on the bankruptcy court, Judge 
Pepper also held numerous leadership positions in the legal 
community, including with the Board of Directors of the Federal 
Defender Service of Wisconsin, the State Bar of Wisconsin, and 
the Eastern District of Wisconsin Bar Association, and the 
Milwaukee Bar Association.
    As you heard, Judge Pepper received her J.D. from Cornell, 
where she was an editor in the Cornell Law Review and a winner 
of the Sutherland Moot Court competition.
    From 1989 to 1990, she was a law clerk to the Honorable 
Frank J. Johnson, Jr., of the U.S. Court of Appeals for the 
Eleventh Circuit.
    Judge Pepper lives in Shorewood, Wisconsin, with her son, 
Leland, who I am delighted joins us here today. Senator Johnson 
and I strongly support Judge Pepper's nomination to the U.S. 
District Court for the Eastern District of Wisconsin, and I 
urge this Committee and the entire Senate to confirm her 
expeditiously.
    Senator Schumer. Thank you, Senator Baldwin, and I thank 
you and Senator Johnson for being here. I know you two have 
busy schedules, so we understand if you cannot stay to listen 
to the rest of the proceedings.
    Now I am going to read my remarks about Brenda K. Sannes of 
the Northern District, and then I will turn the gavel over to 
Senator Coons, who has graciously agreed to continue chairing 
this panel, and I believe he has remarks for Patricia McCarthy 
and Jeri Somers. Then we will, at Senator Grassley's request, 
first do the circuit court judge nominee, Pamela Harris, and 
then do the four district court nominees--Ms. Sannes, Ms. 
Pepper, Ms. McCarthy, and Ms. Somers. Four women, excellent. 
Okay, five women altogether. Yes, that is very good.

PRESENTATION OF BRENDA K. SANNES, NOMINEE TO BE DISTRICT JUDGE 
FOR THE NORTHERN DISTRICT OF NEW YORK, BY HON. CHUCK SCHUMER, A 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Schumer. Good morning, and I want to thank Ranking 
Member Grassley for being here, and I want to thank Senator 
Coons, who I said a moment ago has graciously agreed to chair 
the hearing--he has many good qualities, and graciousness is 
indeed one of them--and for all our witnesses.
    Now, I could not be more pleased to come before the 
Committee today to introduce my 20th nominee to the Federal 
district court bench in New York, Brenda K. Sannes. Ms. Sannes 
is the very model of a Federal judge in both qualification and 
temperament. Ms. Sannes passes my three-part test for becoming 
a Federal judge within an A-plus, a grade that she appears to 
have received at every juncture in her career. Indeed, my first 
criteria is excellence, to be legally excellent, not a 
political hack or anything like that.
    Ms. Sannes earned her B.A. magna cum laude from Carleton 
College and her law degree, also magna cum laude--it is too bad 
our two witnesses are gone--from the University of Wisconsin 
Law School, where she was articles editor of the Law Review.
    After graduating, Ms. Sannes clerked for the renowned Judge 
Jerome Farris of the United States Court of Appeals for the 
Ninth Circuit. She settled first in Los Angeles, where she 
worked as a litigation associate with the law firm of Wyman, 
Bautzer, Christensen, Kuchel and Silvert, and then moved to the 
U.S. Attorney's Office for the Central District of California. 
But, fortunately for central New York and for upstate New York, 
Ms. Sannes next moved to Syracuse where, since 1988, she has 
dedicated her talents to our Nation's service as Assistant U.S. 
Attorney for the Northern District of New York. Most recently, 
her work as head of the appellate division there has earned her 
the respect and accolades of judges all over the Second 
Circuit.
    Along the way, Ms. Sannes has received awards that are 
literally too numerous to mention here. By way of example, she 
has been lauded by the FBI, the L.A. Police Department, the 
U.S. Postal Inspection Service, and the Organized Crime Drug 
Enforcement Task Force.
    Ms. Sannes' experience in public service has helped her to 
meet my second important qualification for becoming a judge: 
moderation. I do not like ideologues on the bench, far left or 
far right, because they tend to--they often impose their views 
rather than interpret the law. Talk to anyone who has practiced 
law with her or judges before whom she has appeared or even 
counsel who have been on opposing sides of cases from her. They 
will tell you she is unerringly fair, listens intently, makes 
reasonable decisions, and presents only the most solid argument 
in her cases. And not only has she dedicated herself and her 
entire career to public service, she has found time to mentor 
young lawyers and teach and lecture aspiring lawyers on a host 
of criminal justice issues.
    Finally, all other things being equal, I look for diversity 
in candidates on the bench. I think it is important that the 
communities served by our Federal judges see judges who are 
like them and whose values and experiences are likely to 
reflect their own. Ms. Sannes will be only the second female 
judge in the history of the Northern District of New York, one 
whose arrival will be welcome not just by women, of course, but 
by everyone who values the quality and fairness of the Federal 
judiciary. I was proud to nominate the first woman nominee to 
the bench in the Northern District, and now I am equally proud 
to nominate the second.
    In fact, Ms. Sannes' entire family reflects the great 
community that they come from. Here today with her is her 
husband, Steve Clymer, and he has earned very high marks for 
his service in the U.S. Attorney's Office in the Northern 
District of New York. She is also accompanied by her sons 
Matthew, 19, a physics major at Cornell--as I mentioned, a 
great institution--Samuel, who is 16; and Benjamin, who is 10. 
I am told that Ben will be missing his second to last day of 
school, which is Movie Day, to be here with his mother. I hope 
they are showing a good legal movie, you know, like ``The Last 
Angry Man,'' or I do not know, some legal movies or other.
    Anyway, I am not going to pretend that this is going to be 
better than a movie, but I do think that, Ben, you will 
remember it a lot longer.
    I know you are all very proud of your wife and your mother, 
and I am pleased to have you all here today.
    With that, I am going to call on the gracious Senator Coons 
to chair the hearing and to make two introductions.
    Senator Coons [presiding]. Thank you very much, Senator 
Schumer, Senator Grassley. Let me, if I might, just conclude 
the introductions for our panel today.
    It is to me impressive that we have five such exceptional 
nominees with a wealth of experience, and I applaud my 
colleagues for making progress in continuing to fill the 
vacancies in our Federal judiciary. We do have 61 current 
vacancies, and although we have made progress in the past few 
months, we still have much work to do. Seven percent of the 
Federal bench remains vacant, and this is an important step 
toward filling those vacancies.
    Today's nomination hearing is also a key step toward making 
our Federal judiciary more diverse. This is the first all-
female judicial nomination hearing in over a decade and the 
first such hearing ever with five female nominees. Let me, if I 
might, continue to introduce the remaining two nominees for 
today.
    Patricia McCarthy, a nominee to the United States Court of 
Federal Claims, and since 1994, Patricia has served in the 
Commercial Litigation Branch of the Civil Division of the 
United States Department of Justice, where she currently serves 
as Assistant Director. Prior to Government service, Ms. 
McCarthy worked as an associate at Bingham, Dana and Gould in 
Boston from 1989 to 1994. Born in Medford, Massachusetts, she 
received her B.A. cum laude from Colby College and her J.D. 
from Cornell Law School, about which we have already heard a 
great deal.
    [Laughter.]
    Senator Coons. Our last nominee today is Jeri Kaylene 
Somers, who is nominated to the United States Court of Federal 
Claims. Since 2008, Judge Somers has been Vice Chair of the 
United States Civilian Board of Contract Appeals where she 
formerly served as a board judge. She is also currently a 
lecturer in law at George Washington University Law School. For 
the first 21 years of her legal career, she also served as a 
judge advocate and a military judge in the United States Air 
Force. Born in Wichita, Kansas, Judge Somers earned her B.A. 
from George Mason University and earned her J.D. from the 
American University Washington College of Law.
    Now, by prior agreement, we will move now to nominee Pamela 
Harris for the Fourth Circuit Court of Appeals. Ms. Harris, if 
you will come forward and, following the tradition of this 
Committee, be sworn.
    Please stand and raise your right hand. Do you solemnly 
swear that the testimony you are about to give to the Committee 
will be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Ms. Harris. I do.
    Senator Coons. Thank you. Let the record show the nominee 
has answered in the affirmative. Please be seated.
    I would now like to invite you, Ms. Harris, to give an 
opening statement and feel free to recognize loved ones and 
supporters who may be with you today as well.

             STATEMENT OF PAMELA HARRIS, NOMINEE TO
            BE CIRCUIT JUDGE FOR THE FOURTH CIRCUIT

    Ms. Harris. Thank you, Senator Coons, and thank you for 
chairing this hearing. I would like to thank Chairman Leahy and 
Ranking Member Grassley and the entire Committee for its 
consideration. It is a great honor for me to be here today, and 
I appreciate it.
    I also would like to thank Senator Mikulski and Senator 
Cardin for their exceptionally kind introductions and for their 
support.
    And, finally, I would like to thank my family and my 
friends who are here today, and if I may just briefly introduce 
my family.
    Senator Coons. Please.
    Ms. Harris. I have my cousin, Lauren Kline, with her 
husband, Andrew, and daughter, Becca. Lauren is just a few 
years older than me, but that is old enough to make her the 
matriarch of our family. So she is here also representing my 
entire extended family.
    I also have my brother, Geoffrey Harris, and my two 
sisters, Elizabeth Harris and Tiffany Harris. And as has been 
mentioned already, all three of them are lawyers as well 
because all of us followed in the footsteps of my mother, Ellen 
Harris, who went to school at night to become a lawyer and then 
did become a lawyer while she was raising the four of us as a 
single parent. Her dedication and her integrity as a lawyer 
were an inspiration, and I know that she would be very proud of 
us today.
    Finally, I have my husband, Austin Schlick, and my two 
children: Henry, who is 15, and Ellen, who is 13. My family is 
the joy of my life, and I am very happy that they are here 
today.
    And, with that, I am very happy to answer your questions.
    [The biographical information of Ms. Harris appears as a 
submission for the record.]
    Senator Coons. Thank you very much, Ms. Harris. We will 
begin with 5-minute rounds.
    First, would you just start by describing for us your 
judicial philosophy?
    Ms. Harris. Senator, I do not have an overarching judicial 
philosophy. I believe that the role of a judge is to decide 
cases through impartial application of law and precedent. It is 
a limited role. Judges do not make law. But it is an important 
role. What they do is they decide the concrete disputes in 
front of them with attention to particular facts, attention to 
the arguments of the parties and their briefs, and, again, by 
applying law and precedent to those facts. And that is the only 
philosophy I would take with me if I were confirmed.
    Senator Coons. You have had a distinguished career, as 
mentioned by the two Senators who introduced you, as an 
appellate litigator, as an academic professor and scholar at 
three of our Nation's leading law schools, and you have helped 
to found and lead prominent law and policy organizations.
    During your career you have been able to advocate for and 
publish your views on a very wide range of legal issues. If 
confirmed to the Fourth Circuit, how would your prior advocacy 
influence your judging?
    Ms. Harris. It would not, Senator. I understand these as 
being very, very different roles. I think that as an advocate, 
your position is essentially given to you. You start with a 
position that benefits your clients, and then from there you 
develop the best, reasonable legal arguments that can be made 
on your client's behalf.
    I think as a judge the role is entirely different. You 
start with neutral, careful, fair consideration of the law, and 
then you apply it to the facts in front of you without regard 
to how it affects any particular party. So I do think of them 
as very different roles.
    Senator Coons. And I would agree. Over the course of your 
private practice, you have helped to defend a wide range of 
issues in your advocacy, for example, compulsory arbitration 
agreements in the employment context. You have argued on behalf 
of Mobil Corporation, plaintiffs injured by Mobil-produced 
asbestos ought not to be able to pursue their claims through 
mass adjudication. These positions are quite in contrast to 
some of the other advocacy organizations you have been involved 
in. But I would wager that you are able to resolve that tension 
in some way going forward.
    Would you help us understand how you would distinguish 
between positions taken on behalf of clients and positions 
taken on behalf of policy organizations, and how you would view 
different sources as you move toward being a judge?
    Ms. Harris. Senator, with respect to my representations of 
clients when I was at O'Melveny and Myers, where I worked for 
10 years as an appellate and Supreme Court litigator, I took 
positions based on what was best for my client, and that was 
true whether they were some of the corporate and business 
interests you have identified, whether they were indigent 
individuals, organizational pro bono clients. I took those 
positions without regard to any personal views I might have had 
on the matter.
    I think the through line there is that, of course, as a 
judge I would fairly and impartially apply precedent, again, 
without regard to any personal views I might have on any 
matter, and without regard to any advocacy positions I might 
have taken on behalf of clients.
    Senator Coons. Thank you.
    While in private practice, you did establish an admirable 
cooperative program between O'Melveny and Myers and the 
Maryland Office of the Public Defender, through which the firm 
provides pro bono appellate representation to indigent 
defendants in Maryland State court.
    What led you to do that? And what role do you think judges 
broadly should have in ensuring access to justice?
    Ms. Harris. Senator, access to justice has been an 
animating value of my entire career. I just think the appellate 
process works best and appellate judges depend on vigorous 
advocacy on both sides of the issue. The whole system depends 
on the idea that the best arguments will be put forward on both 
sides of the argument regardless of a client's ability to pay 
and regardless of any other issues.
    I was happy to help found that partnership with the 
Maryland Public Defender's Office, in part because Maryland is 
my home State and I was always looking for ways to contribute 
in Maryland, and in part because I believe so deeply in this 
value that people must be represented before the courts because 
that is how the courts work best.
    Senator Coons. A last question, if I might. You have spoken 
publicly and litigated cases that advanced the cause of 
diversity, in particular diversity in education. Speak a bit, 
if you would, about your views on the importance of diversity 
in the Federal bench as well and how you think that impacts the 
functioning of the judicial system and access to justice.
    Ms. Harris. I think as a general matter, if the courts 
broadly reflect the diversity of the litigants who come before 
them, that is good for the courts. I think it helps encourage 
public confidence in the courts. It helps a sense of legitimacy 
about the courts.
    I also think that having a broad range of judges can 
provide valuable role models for young students--I see this all 
the time with my own law students--for other young people 
considering professional careers.
    Senator Coons. Thank you very much, Ms. Harris, for your 
answer.
    Senator Grassley.
    Senator Grassley. I am well aware of the answers to your 
first two or three questions of Senator Coons, and I respect 
that answer. I think my line of questioning will be along the 
lines of some things you have said in the past and how they 
seem to be inconsistent with your view of judging.
    In a Washington Post article on same-sex marriage issues, 
you are quoted as saying, ``Justice Kennedy should be changing 
the same way the whole country is changing''--regarding same-
sex marriage.
    First question: Why do you believe a Supreme Court Justice 
should change his or her views and, therefore, judicial 
interpretation based upon public sentiment if we have a 
judiciary that is supposed to do what you just said, apply 
precedent and fact to deciding the case?
    Ms. Harris. Senator, thank you for that question. I am 
happy to have an opportunity to clarify. That was a comment I 
made to a journalist. I am often asked as a Supreme Court 
litigator to sort of opine and speculate about issues before 
the Court.
    I would never suggest that a Justice of the Supreme Court 
or any judge should change his or her opinions based on public 
opinion. That is not the way I view the role of a judge. I am 
confident it is not the way Justice Kennedy views his role or 
any other judge views his or her role.
    When we talk as commentators about the individual views of 
Justices, we are usually talking about their written record as 
it has developed through their majority opinions, their 
separate writings. And what I was doing in that comment is 
likely I had been talking about Justice Kennedy's distinct 
record on issues involving classifications based on sexual 
orientation and predicting where those legal views might bring 
him in future cases.
    Senator Grassley. Okay. In the same interview, you also 
stated that you thought ``the tide of history is going one 
way,'' and that you did not think that--well that is the end of 
that part of the quote--and that you did not think that the 
Justices ``wanted to be on the wrong side of that.''
    Do you believe it is appropriate for a judge to consider 
which ``side of history'' their judicial interpretation should 
be?
    Ms. Harris. Again, no, Senator, I do not. And I did not 
mean to suggest that. I think there is another sentence in the 
article that makes clear, the context makes clear that what I 
was talking about was a notion of judicial restraint that 
courts, the Supreme Court, might want to be especially cautious 
on social issues when the political branches and political 
institutions sort of deeply and rapidly engaged in those 
issues, that the courts might want to take small steps, not 
take big steps, and leave as much as possible to the democratic 
process.
    Senator Grassley. In 2013, you moderated a panel on the 
Supreme Court's upcoming term during which you said, ``The 
Constitution evolves. It has to keep pace with changes in the 
factual predicates. And, yes, our readings of constitutional 
provisions ought to change and evolve in light of circumstances 
on the ground like that.''
    Before I ask a question, I would like to say that you have 
been very clear on your views of the Constitution. We know 
where you stand. But I would like to know how you intend to 
decide what changed particular societal circumstances you will 
consider, if confirmed.
    Let me say it this way: It is clear from your writings and 
speeches that you are talking about shifting public opinion 
rather than simply technological advances. For example, in the 
introduction of a book, ``It Is a Constitution We Are 
Expounding,'' you wrote, ``Justice Brennan explores the 
importance of the judge's obligation to speak for the 
community, the current community, in interpreting the 
Constitution.'' You have also discussed what you call 
``constitutional legitimacy coming from social movements.'' The 
problem with this view is that it tends--or it leads to a 
judge's imposing personal views into cases. Justice Scalia 
expressed it this way well in dissent regarding the Eighth 
Amendment, writing, ``Of course, the risk of assessing evolving 
standards is that it is all too easy to believe that evolution 
has culminated in one's own views.''
    Once you start considering shifting public opinion, you are 
essentially reducing constitutional interpretation to public 
poll. So assuming you will interpret the Constitution in a way 
that all of your writing suggests--and I know the answers to 
Senator Coons suggest otherwise--how do you intend to guard 
against imposing your own views as opposed to what you view as 
shifting public opinion?
    Ms. Harris. Senator, let me start by saying that as a 
Supreme Court litigator and appellate litigator, as someone who 
has specialized in preparing other advocates for their 
arguments before the Court, I always have been keenly aware of 
the boundaries of judicial decisionmaking. And as a litigator, 
every argument I ever advanced took as its starting point the 
methodologies that have been used by the Supreme Court and the 
lower courts and the methodologies that have been approved by 
those courts. That is how I have conducted my career.
    In terms of some of the other comments you have raised, I 
do not believe that it is the view of a judge ever to import 
his or her own personal values into judicial decisionmaking. In 
cases in which the Court has looked to things, to social 
conditions, things like that, what the Court--and, again, I 
would follow the Court's precedent on this. What they have 
looked to is objective indicia of such things. They have looked 
to State laws. They have looked at common law. They have looked 
at practices in the States. I am aware of no account of 
legitimate judicial decisionmaking that has judges either 
taking public opinion polls or using their own personal 
preferences to decide cases.
    Senator Grassley. My time is up. I would submit some more 
questions for answer in writing.
    Ms. Harris. Of course.
    Senator Grassley. I would appreciate a response, and 
sometimes if you raise questions with your answers to us, 
sometimes we followup. So do not expect--or, I mean, expect 
some questions.
    Ms. Harris. Of course, Senator.
    [The questions of Ranking Member Grassley appears as a 
submission for the record.]
    Senator Grassley. Thank you.
    Senator Coons. Thank you, Senator Grassley.
    Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman. Thank you for 
your service in the past, and your willingness to do it in the 
future, and thanks to your family as well for supporting you.
    You have an extraordinary career, a career of distinction 
and dedication to public service. And with anyone who has 
served or written or done things over the course of public 
life, obviously there are things that you can say could be 
misinterpreted, could be interpreted in different ways. And I 
would like to ask you about one point in particular. In your 
questionnaire to the Committee, you submitted letters that you 
sent in support of President Bush's, George Bush's judicial 
nominees: Judge Brett Kavanaugh for the United States Court of 
Appeals for the District of Columbia Circuit and Judge Neil 
Gorsuch for the Tenth Circuit. And in one of those letters, you 
stated that you are sometimes in disagreement with Judge 
Gorsuch on political matters, and I assume the same could be 
said of Judge Kavanaugh.
    Ms. Harris. Yes, it could.
    Senator Blumenthal. And given those opposing views on 
political issues--and some on this panel may disagree with you 
on some political issues--what led you to support them as 
nominees to the court of appeals?
    Ms. Harris. Senator, I supported them as nominees because I 
think judging has nothing to do with politics. I was very 
confident that both of those nominees would put to one side any 
political views they might have in judging the issues that came 
before them and that they would approach those issues with an 
open mind, impartially, and base their rulings on law and 
precedent. I do not think politics are relevant. I would do 
exactly the same thing if I were confirmed that I was so sure 
those two nominees would do.
    Senator Blumenthal. And that is really one of the key 
points here, is it not? That a nominee's past political views 
ought not to shape his or her service on the court and ought 
not determine the outcome of our decisions here, because we 
want to look to the qualifications and the willingness of a 
nominee to put those past views aside. And I believe that you 
would. That would certainly be your goal.
    Ms. Harris. Yes, Senator, that is right. As a litigator for 
so many years in private practice, I always had full 
confidence, when I came to a court, that those judges would be 
deciding the cases on the law, that they would approach the 
briefs and arguments with an open mind, fairly and impartially. 
It is the cornerstone of the system, and I would be honored to 
do the same if I were confirmed.
    Senator Blumenthal. And you have been a prolific writer 
going back to your days on the Yale Daily News.
    Ms. Harris. Yes.
    Senator Blumenthal. Some of us regret what we may have 
written on school newspapers in the past when it is presented 
to us years or decades later. But I assume that you would 
follow the law and attempt to conform your views to what the 
U.S. Supreme Court says the law is.
    Ms. Harris. Senator, I would conform my views to what the 
U.S. Supreme Court says the law is.
    Senator Blumenthal. Tell me, in the short time I have 
remaining, the Georgetown University Law Center's Supreme Court 
Institute, which you have headed, is a real resource for anyone 
who advocates before the Supreme Court. I do not think I have 
ever used it, but I have heard a lot of great things about it. 
As executive director of the institute, how did you determine 
who participates in the program?
    Ms. Harris. Senator, the institute runs on a strictly 
nonpartisan basis, on a first-come/first-served basis. We 
prepare advocates for their arguments before the Supreme Court 
without regard to the position being taken, without regard to 
the nature of the client.
    The commitment really is to the appellate process, to 
ensuring that the best legal arguments are presented on either 
side of the issue to the Supreme Court.
    Senator Blumenthal. And one reason why that is important is 
that the courts make better decisions when both sides are 
represented ably. Is that----
    Ms. Harris. That is the entire value behind the Supreme 
Court Institute, that it is a matter of assisting the Court by 
ensuring that the best possible legal arguments are presented.
    Senator Blumenthal. And your goal, one of your goals, to 
the extent that you are able to do so, I hope would be to 
assure that both sides of an argument are represented ably 
before your court.
    Ms. Harris. Absolutely, Senator.
    Senator Blumenthal. Thank you.
    Ms. Harris. And I would give full and careful respect to 
both sides as they represent it.
    Senator Blumenthal. Thank you. I appreciate your very 
helpful answers to my questions. My time has expired.
    Ms. Harris. Thank you.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Blumenthal. And Senator 
Blumenthal is going to take over chairing while I run to cast a 
first vote, and we are going to do a little back-and-forth on 
that.
    If I might, before I turn to Senator Cruz, I just wanted to 
make sure that we have introduced for the record letters 
submitted to the Committee in support of Ms. Harris' 
nomination. These are letters--there is one from former law 
firm partners, one from professional colleagues, classmates, 
from the Leadership Conference on Civil and Human Rights and 
the National Women's Law Center. I will just note that across 
them they praise you for your professionalism, grace, 
collegiality, your humble and down-to-earth approach. Signers 
of these letters span the ideological gamut and include A.B. 
Culvahouse, former White House Counsel to President Reagan; 
Cailley Balak, former Chief Counsel and Staff Director of the 
Permanent Subcommittee for Investigations, who worked for 
Senator Collins; Brian Boyle, who previously served President 
Bush; Ted Kassinger, who served in the Bush administration; and 
Greg Garre, Solicitor General in the Bush administration.
    And if I might quote from your former law partners at 
O'Melveny, ``Some of us have served in Republican 
administrations or worked for Republican Senators. Others have 
served in Democratic administrations or worked for Democratic 
Senators. Some of us are members of the Federalist Society 
while others members of the American Constitution Society. We 
may not all share Pam's views on a range of legal and political 
issues, but we are united in the belief that she possesses the 
intellect, fair-mindedness, humility, and decency to make an 
excellent Federal judge.''
    With that, Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    Professor Harris. Good morning. Welcome.
    Ms. Harris. Thank you.
    Senator Cruz. In a couple of sentences, how would you 
define ``judicial activism''?
    Ms. Harris. Senator, I think that can mean different things 
to different people. I would define ``judicial activism'' as a 
judge who allows his or her personal views to color decisions 
made as a judge, and perhaps also as a judge who goes beyond 
the facts of a case or further than necessary to decide an 
issue.
    Senator Cruz. I agree with that definition, and I will 
confess I am troubled by some of the public comments you have 
made, so I would like to give you an opportunity to address 
them.
    Ms. Harris. Thank you, Senator.
    Senator Cruz. In 2009, at an American Constitution Society 
panel, you described yourself as ``a profoundly liberal 
person'' who sees the Constitution as ``a profoundly 
progressive document.'' And you went on to say, ``I always feel 
unapologetically, you know, left to my own devices, my own best 
reading of the Constitution, it is pretty close to where I 
am.''
    Now, given the definition you have just given of ``judicial 
activism,'' those public comments raise some concern. How would 
you respond to those concerns?
    Ms. Harris. Well, Senator, I would respond first, I think, 
by pointing to my entire professional career where, as a 
Supreme Court and appellate advocate at O'Melveny and Myers, 
running the Supreme Court Institute on an entirely nonpartisan 
basis, I have never let any personal views I have, political 
views I may have affect the discharge of my professional 
responsibilities. And I would not do that if I were confirmed 
as a judge.
    With respect to those specific comments, if I can just give 
you a little bit of context, they came when I was arguing--
basically arguing against audience members who thought that the 
Constitution should be amended to address certain Supreme Court 
decisions that they found too conservative. And my point was 
that commitment to the Constitution actually ought to transcend 
that kind of political difference, and that that was not an 
appropriate reason for amending the Constitution. I described 
myself as ``liberal'' just as a matter of context to suggest 
that even though I might share some of their political 
commitments, I did not believe the Constitution should be 
amended for that reason, and that I did believe commitment to 
the Constitution transcends politics.
    Senator Cruz. Looking to those comments, is it a fair 
inference when you said that your best reading of the 
Constitution pretty much always conforms to your own personal 
political views, which you described as ``profoundly liberal''? 
Do you agree with that statement?
    Ms. Harris. Senator, only in the absolutely most broad 
sense in which I was using those terms in that comment. I do 
believe that the Constitution is committed to values that were 
very forward-thinking at the time, and this is what I meant by 
``progressive,'' values like democracy, rule of law, equality, 
individual liberty. I think that is a very noncontroversial 
proposition, and that is all I was saying there.
    Senator Cruz. As I understand it, you have been committed 
to liberal values your whole life, which I commend you for the 
consistency. My understanding is in college, with respect to 
President Reagan, you said, ``The greatest American nightmare 
of our time would be a second term for Ronald Reagan.'' Do you 
still have that view?
    Ms. Harris. Senator, I do not, and I am happy to have the 
chance to address those columns. You know, those columns were 
written 30 years ago as a college student. They represent what 
were then my very earnestly held, though somewhat uninformed 
views.
    As I sit here before you, I cannot really accept them 
today. I am proud of my youthful passion. I deeply regret my 
tone. I think if you talk to people I have worked with over the 
last 20 years, they will tell you that I pride myself on my 
open-mindedness, my respect for people with whom I disagree. 
And in knowing what it is I do not know, to the extent that my 
early columns do not reflect that, I regret that.
    Senator Cruz. Well, I appreciate your comments clarifying 
that.
    Let me ask an additional question. Also in 2009, you 
criticized liberals for believing that the Warren Court's 
decisions were ``as liberal as it gets,'' and you responded, 
saying, ``That is not right.'' And you went on to say, ``We 
have stunted the spectrum of legal thought in a way that 
removes the possibility that there could have been more 
progressive readings of the Fourth and Fifth Amendments.''
    Now, as you know, the reaction to the Warren Court criminal 
procedure rulings that were widely perceived to be creating 
loopholes and allowing dangerous criminals back onto the street 
was fairly dramatic, and it is unusual for judicial nominees to 
have taken a position suggesting that the Warren Court was not 
nearly liberal enough and it should have been more liberal. Is 
that your view? I want to understand what your view is on that 
question.
    Ms. Harris. Senator, that is not my view, and it is also 
really not what I said. And, again, if I can just give you the 
context on that. I was responding on that panel to an argument 
that Justices perceived as liberal, like Chief Justice Warren, 
had never--and I think the phrase was ``had never felt the pain 
of reaching a constitutional decision that disagreed with 
liberal views.'' And the only point I was making was that 
several of Chief Justice Warren's criminal procedure decisions 
had not, in fact, adopted what was being presented as the 
liberal view. And I believe I talked about the Terry case, and 
that was the only point I was making, that sometimes people 
assume that because Chief Justice Warren wrote an opinion, it 
must have been terribly liberal. I was simply pointing out that 
in the criminal procedure context, Chief Justice Warren wrote 
opinions that did not adopt what was being advanced as the most 
pro-defendant or liberal position. It is just a descriptive 
point about certain criminal procedure decisions.
    Senator Cruz. Well, thank you for being here and answering 
the questions. My time has expired.
    Senator Blumenthal [presiding]. Thank you, Senator Cruz. I 
think that completes our hearing. Thank you very, very much, 
Ms. Harris, for being with us today.
    Ms. Harris. Thank you, Senator.
    Senator Blumenthal. I think we have another panel.
    I would like to call up the next panel, who are: Pamela 
Pepper, Brenda Sannes, Patricia McCarthy, and Jeri Kaylene 
Somers. If you would come forward and you have name 
identifications on the desk.
    If you would please stand and be sworn. Do you affirm that 
the testimony you are about to give before the Committee will 
be the truth, the whole truth, and nothing but the truth, so 
help you God?
    Judge Pepper. I do.
    Ms. Sannes. I do.
    Ms. McCarthy. I do.
    Judge Somers. I do.
    Senator Blumenthal. Thank you. We are in the middle of a 
vote, which is reflected by the lack of attendance right now, 
and Senator Coons will be coming back shortly. But if you would 
like to do so, perhaps you could begin with your opening 
statements, identifying the family members who are with you, 
and saying anything you would like to say by way of 
introduction. Judge Pepper.

 STATEMENT OF HON. PAMELA PEPPER, NOMINEE TO BE DISTRICT JUDGE 
             FOR THE EASTERN DISTRICT OF WISCONSIN

    Judge Pepper. Thank you, Senator Blumenthal. First of all, 
I would like to thank Senators Baldwin and Johnson who spoke 
earlier. Not only I but many people in the legal community in 
Wisconsin are very grateful for their bipartisan efforts to 
present judicial nominees to this Committee, and I wanted to 
express my gratitude for that, as well as to you and the 
Members of the Judiciary Committee for scheduling this hearing 
and for allowing us to testify. I would also like to thank the 
President for his nomination.
    There are a number of people who could not be here today. 
My parents, Bruce and Beverly Pepper, and my aunt and uncle, 
Tom and Fay Cook, are not with us today because jointly they 
are in an effort to get my 18-year-old niece, Sophie, on her 
high school graduation trip to Paris. So there are machinations 
around plane trips and schedules and things like that, so that 
is what they are doing. My niece, Sasha, was also not able to 
be with us. My brother, Cliff, however, is here in the 
audience, and I am pleased to have him here as well.
    Also not with us today are my courtroom deputy and my law 
clerk, Chris Roble and Emily Steadman. I could not do my job 
without them. They are watching via webcast back in Wisconsin, 
as are the clerk's officers of the bankruptcy court and the 
district court. I suspect there is food involved in that 
activity, and I am grateful to them for watching, many 
bankruptcy judge colleagues and friends also.
    Here in the hearing room today, I am grateful to have a 
number of friends and family, some of my friends from the 
American Bankruptcy Institute: Ted Gavin, a member of the board 
of directors; Sam Giordano, executive director of that 
organization. I am grateful to them for being here today.
    In addition, my friend Denise Neary, who is a senior 
litigation attorney with the Federal Judicial Center, which is 
responsible for educating the judges in the Federal system. 
They do a wonderful job. I am very grateful for their help and 
also for her being here.
    My cousin, David Cook, with the Administrative Office of 
U.S. Courts; my judicial assistant Paula Macomber and her 
husband, Mac, have made the trip to be here. And I am grateful 
to Paula for all of her help.
    And, finally, my son, Leland, who is seated just behind me, 
and his father, Jeff Hanewall, are here today, and I am very 
proud for them to be here.
    Finally, I would like to acknowledge the judge for whom I 
clerked, Frank Johnson, Jr., who no longer is with us. I had 
the opportunity to learn what a great judge is by clerking for 
Judge Johnson, and I am grateful for that.
    [The biographical information of Judge Pepper appears as a 
submission for the record.]
    Senator Blumenthal. Ms. Sannes.

STATEMENT OF BRENDA K. SANNES, NOMINEE TO BE DISTRICT JUDGE FOR 
               THE NORTHERN DISTRICT OF NEW YORK

    Ms. Sannes. Thank you. I would like to thank President 
Obama for the incredible honor of this nomination. I would like 
to thank Senator Schumer for recommending me to President Obama 
and for his gracious and kind remarks. Then I would like to 
thank Senator Blumenthal for chairing this hearing.
    And I would like to introduce my family: my husband of 20 
years, Steve Clymer. Steve is an accomplished lawyer and law 
professor who has inspired his colleagues and the hundreds of 
young lawyers who he has trained.
    We have our three sons here today: Matthew, who just 
finished his freshman year at Cornell University; Samuel, who 
just finished his sophomore year in high school; and Benjamin, 
who, as Senator Schumer noted, is missing Movie Day. He has a 
half-day left of school before he finishes fifth grade.
    My parents are watching via webcast in Billings, Montana. I 
would like to thank them. Their hard work in running small 
businesses in Billings put me through college and has given me 
a strong work ethic.
    Finally, I would like to thank my mother-in-law, who is 
watching from Pasadena, California, for her love and support.
    [The biographical information of Ms. Sannes appears as a 
submission for the record.]
    Senator Blumenthal. Thank you.
    Ms. McCarthy.

           STATEMENT OF PATRICIA M. McCARTHY, NOMINEE
           TO BE JUDGE OF THE COURT OF FEDERAL CLAIMS

    Ms. McCarthy. Thank you, Senator. I would like to thank the 
Members of the Committee for convening this hearing and 
allowing me to participate.
    First of all, I would like to thank President Obama for the 
incredible honor of nominating me to the Court of Federal 
Claims. It is a court in which I practiced for 20 years, and I 
am incredibly grateful to the President.
    My family is here with us. We are local so we did not have 
to travel. My husband, David, is here, and my three daughters:
    My oldest daughter, Isabelle, is 19, and she is home from 
her first year away at college. And as parents of firstborns 
know, probably it was more difficult for my husband and me than 
it was for her to be away, but she is back here for the summer.
    My daughter Sarah is 16 years old, and she is a rising 
junior at the Lab School of Washington, which is an incredibly 
amazing and fantastic school here in the district.
    My daughter Madeline is also 16 years old and a rising 
junior at the Lab School, and Madeline and Sarah are actually 
extremely close in age. Sarah is 28 minutes older, and she 
lords it over Madeline all the time.
    Also here, people who have traveled, my mother has traveled 
from Massachusetts, Mary McCarthy, and her partner of more than 
25 years and spouse of 10 years, Bonnie Winokar. My mother is a 
retired chemist, and Bonnie is a retired high school math 
teacher, and my daughters profit from her generous provision of 
free tutoring services via Skype and Google Chat.
    My brother, Michael McCarthy, is also here from Boston, and 
my sister-in-law, Daphne Minner, could not be here. She is home 
at work at the Arnold Arboretum in Massachusetts.
    My brother, Brian McCarthy, and sister-in-law, Tessa Cale, 
did make the trek from New York, and I am very grateful for 
them to be here.
    There is one person I would like to mention who could not 
be with us, and that is my late father, Leonard McCarthy. He 
has been dead for several years. He actually died when I was in 
law school at the age that I am at now, which is not a terribly 
old age, and I obviously wish that he could be here. But I am 
joined by my friends and colleagues from the Department of 
Justice, and many are here in person, and others are watching--
they are streaming, which is probably causing consternation to 
our Department of Justice IT Department, but maybe they will 
cut us some slack for this morning.
    But I am truly grateful to the Committee for holding this 
hearing, and I welcome any questions, would be delighted to 
answer any questions you have.
    [The biographical information of Ms. McCarthy appears as a 
submission for the record.]
    Senator Blumenthal. Thank you. We are going to have to take 
a brief recess--I do apologize--because Senator Coons is on his 
way back but is not yet here. So this Committee will stand in 
brief recess. It will just be a couple of moments, and I do 
apologize for the delay. Thank you.
    [Whereupon, at 11:18 a.m., the Committee was recessed.]
    [Whereupon, at 11:24 a.m., the Committee reconvened.]
    Senator Coons [presiding]. I would like to return this 
hearing to order.
    Ms. Somers, I believe you were on the verge of your opening 
comments, and I will comment, if I might, given that we have 
begun a series of four votes. I do not know whether other 
Members will return. I myself have to go back to cast a vote. 
You may be the luckiest judicial confirmation panel in history.
    [Laughter.]
    Senator Coons. And I know you have all prepared at great 
length for this very demanding confirmation today, but given 
the press of votes and the distance from here to the Capitol, 
we may end up submitting questions for the record.
    Ms. Somers, let us proceed with you and see how we do.

         STATEMENT OF HON. JERI KAYLENE SOMERS, NOMINEE
           TO BE JUDGE OF THE COURT OF FEDERAL CLAIMS

    Judge Somers. Thank you, Senator Coons. Thank you so much 
to the Committee for convening this hearing. Thank you for the 
very kind comments that you made at the very beginning about me 
and my colleague. Thank you for President Obama's nomination. I 
am honored to be here.
    I just wanted to introduce my family briefly and my 
friends. So behind me is my father, Christopher Somers. He is a 
retired Air Force colonel, having gone through the ranks of the 
lowest enlisted to colonel. He came here from Jamaica, and 
after graduating from--I mean, after retiring from the Air 
Force, he went to law school and is now a practicing attorney.
    My mom, Jacqueline Somers, is also here. She recently 
retired from being a neonatal nurse. She was born in Chicago 
but grew up in the town that President Obama's grandparents are 
from, a small town in Kansas.
    My daughter, Kristen Somers, is here. She is a rising 
senior and goes to Yorktown High School and plays lacrosse and 
does lots of other teenage activities. Her friend, Scarlett 
Cruz, is also here to support me.
    My boss, Chairman Daniels, of the Civilian Board of 
Contract Appeals is here. He has always been a strong 
supporter, and despite the fact that he does not want me to 
leave, he is here giving me all the support he can.
    My friend Tamara Ashford, who is the Assistant Attorney 
General for Appellate Tax and also a tax court nominee, is here 
to support me, as well as two of my friends from my 
neighborhood running group, Hot Lava, Darla Gonson and Ellen 
Hemstreet.
    With that, thank you so much for the opportunity to speak 
to the Committee.
    [The biographical information of Judge Somers appears as a 
submission for the record.]
    Senator Coons. Thank you, Ms. Somers. And as someone who 
has his own neighborhood running group, not with the nickname 
Hot Lava----
    [Laughter.]
    Senator Coons. Home in Wilmington, Delaware, that I ran 
with this morning, I understand the importance of friends and 
support, and, Colonel, welcome. Clearly both your parents led 
you to a career of great success and service, public service.
    Let me, to all four of the nominees, thank you for your 
willingness to serve. Thank you for your preparation for this 
hearing, and thank your friends and your family for supporting 
you through this process.
    I would like each of you, if you could, in series, to 
simply answer the question: Describe your judicial philosophy, 
and how will the experiences you have had in public service or 
in legal service, or both, how have they prepared you for the 
judicial position to which you have been nominated? Judge 
Pepper.
    Judge Pepper. Thank you, Senator Coons. My judicial 
philosophy, I suppose, is first a description of what I 
perceive to be the role of a good judge, and that is, to be a 
neutral party who applies the law to the facts, who is 
responsible for determining what the appropriate law should be, 
and then listening carefully to each side and giving fair 
weight to each side's arguments before making a determination.
    I suppose that is a description of a role, and so I would 
add to that my own philosophical gloss, which is the importance 
of giving each side or every party the opportunity to be fully 
heard and to know that they were fully heard before rendering a 
decision, as well as to explain as clearly as I can the basis 
for that decision.
    Senator Coons. Thank you.
    Ms. Sannes.
    Ms. Sannes. Yes, I agree with Judge Pepper's views of 
judicial philosophy. As a litigator for the past 25 years in 
Federal court and appellate court, I understand the importance 
of appearing before judges who are fair, impartial, open-
minded, and will follow the law. And if fortunate enough to be 
confirmed, I would aspire to be that as a judge.
    For the last 8 years, I have done appellate work, and I 
think my experience doing appellate work has given me a lot of 
training in the proper way to have a district court record, in 
trying to prevent--make sure the facts are developed well and 
make sure that the record is as solid as possible so it can be 
upheld on appeal.
    Senator Coons. Ms. McCarthy.
    Ms. McCarthy. Thank you, Senator. I concur with the 
statements of my co-panelists, but I would also like to add 
that I, in my 20 years at the Department of Justice, have had 
the privilege of practicing not only in the Court of Federal 
Claims but also in the Court of International Trade and the 
Court of Appeals for the Federal Circuit. So I think I have an 
overview of the national court system and the adversarial 
system that Congress devised for the resolution of claims 
against the United States. And I think I have an insight as to 
the importance of having a fair and impartial decision so that 
litigants who come to the court with claims against the 
Government understand the rulings and respect the rulings and 
feel that they have had their fair day in court.
    Senator Coons. Agreed.
    Ms. Somers. Judge Somers.
    Judge Somers. Senator Coons, I do not really have much to 
add other than to say that I believe my philosophy is informed 
by my more than 21 years as a military officer, including as a 
military judge, my time at the Department of Justice, the U.S. 
Attorney's Office, and in the private sector as well as 
teaching young law students about the rule of law.
    My philosophy is very focused on making sure that justice 
is given expeditiously but fairly so that parties have a chance 
to provide their analysis of their cases without me 
predetermining their answers and the response and the decision, 
and also taking the opportunity to try to ensure that decisions 
are rendered as quickly as possible.
    Senator Coons. Thank you. I would like to thank all four of 
you. We have had five outstanding nominees today. Each of you 
has in your own way served our court system, served justice, 
served our Nation, and I do think it is absolutely essential 
that we continue to advance access to justice, diversity in our 
Federal judiciary, and excellence. And I think all of you have 
been strong nominees from those perspectives.
    I am going to keep the record of this hearing open for a 
week, so as you heard from Senator Grassley before, there may 
be other Senators unable to attend due to the voting schedule 
who will submit questions for the record. In any event, I would 
like to join, I know, all of my colleagues in thanking your 
family and your friends for supporting you here today. Breathe 
a great sigh of relief.
    With that, this confirmation hearing is adjourned.
    [Whereupon, at 11:32 a.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]




                    NOMINATIONS OF STEPHEN R. BOUGH,
                    NOMINEE TO BE DISTRICT JUDGE FOR
   THE WESTERN DISTRICT OF MISSOURI; ARMANDO OMAR BONILLA, NOMINEE TO
BE JUDGE OF THE COURT OF FEDERAL CLAIMS; WENDY BEETLESTONE, NOMINEE TO 
  BE DISTRICT JUDGE FOR THE EASTERN DISTRICT OF PENNSYLVANIA; MARK A. 
   KEARNEY, NOMINEE TO BE DISTRICT JUDGE FOR THE EASTERN DISTRICT OF 
 PENNSYLVANIA; JOSEPH F. LEESON, JR., NOMINEE TO BE DISTRICT JUDGE FOR 
THE EASTERN DISTRICT OF PENNSYLVANIA; AND GERALD J. PAPPERT, NOMINEE TO
       BE DISTRICT JUDGE FOR THE EASTERN DISTRICT OF PENNSYLVANIA

                              ----------                              


                        THURSDAY, JULY 24, 2014

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:15 a.m., in
Room SD-226, Dirksen Senate Office Building, Hon. Sheldon 
Whitehouse, presiding.
    Present: Senators Whitehouse and Grassley.
    Senator Whitehouse. Well, I was going to call this hearing 
to order, but it looks like it has come to order on its own. It 
must be the distinguished presence of Senator McCaskill and 
Senator Toomey here.
    We welcome both of you. I understand that Senator Casey 
will be joining us shortly. I welcome my Ranking Member, 
Senator Grassley, who has agreed with me that rather than make 
our opening statements first and have the Senators who have 
candidates before us wait through all that, we will proceed 
directly with those Senators so they can go on about their 
business. And then we will make our opening statements 
afterwards.
    So we will begin with Senator McCaskill. You are recognized 
to make your statement in support of your nominee, and we 
welcome you to the Judiciary Committee.

PRESENTATION OF STEPHEN R. BOUGH, NOMINEE TO BE DISTRICT JUDGE 
FOR THE WESTERN DISTRICT OF MISSOURI, BY HON. CLAIRE McCASKILL, 
           A U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator McCaskill. Thank you, Senator Whitehouse, and thank 
you, Senator Grassley. I know you all do great work here and 
have an awesome responsibility in terms of moving these 
nominees through so they can take their place on the bench and 
judicial economies can be realized by having a full complement 
of judges to hear cases.
    I better turn that off before I go any further.
    Typically, I do not bring a sheet of paper to talk off of 
when I talk about nominees that I have urged the White House to 
put in play because I know them pretty well, and this is no 
exception, except I was afraid I would forget all the stuff 
that Steve Bough has done if I did not bring a cheat sheet, 
because he has an amazing record of leadership within the legal 
profession in my State.
    He grew up in a small town called Republic, Missouri, and 
attended Missouri State University, which is located in 
Springfield in the southwest corner of our State. That is where 
he met his wife, Andrea. He attended law school at the 
University of Missouri, located in Kansas City, and he was 
editor-in-chief of the Law Review during his time at law 
school.
    After law school, he clerked for a very distinguished judge 
in our history in the State, Judge Scott Wright. After that, he 
began practicing law, and he has been a partner in his own law 
practice for a number of years. Prior to that, he was an 
associate at a very respected law firm, Shamberg, Johnson and 
Bergman.
    But he has been practicing on his own since 2002, in his 
own law firm, where he is a partner. So he understands the 
challenges of small businesses and that fear that you have 
gnawing in your stomach that everyone gets paid before you do. 
And, therefore, you must work hard.
    He is active in a lot of bar organizations and has served 
in leadership roles in almost every bar organization in our 
State. He has been president of the Kansas City Bar 
Association, Young Lawyers Section. He has been on the Board of 
Directors of the Kansas City Metropolitan Bar Association, the 
Board of Governors of the Missouri Bar Association, and 
currently serves on the Board of Governors of his university, 
Missouri State.
    He serves as an adjunct professor at UMKC Law School 
teaching Federal Jurisdiction and Trial Advocacy. Additionally, 
he serves on the Professor Robert Downs Scholarship Committee, 
an endowed scholarship at UMKC Law School.
    Steve has been president of the UMKC Law Alumni Association 
and is a member of the Board of Trustees for the UMKC Law 
Foundation.
    Now, the best part about Steve Bough are the people he has 
with him today. He has with him today his wife, Andrea, who is 
a lawyer in her own right. She is an accomplished attorney who 
works in a very respected law firm in Kansas City doing real 
estate development work, municipal bonds, and has specialized 
in making sure people understand their obligations under our 
Sunshine law, which is the State equivalent of FOIA.
    Then they have two children, and, boy, they look good 
today, and I have got to mention their names. I mean, Grant is 
sporting a bow tie, Mr. Chairman, that you should long for. 
Ashley and Grant are their two children, and they are very 
active in the community. Both Mr. and Mrs. Bough serve as 
elders in their church, and I remember my mother when she met 
Steve Bough at her church. He came up to her, as did his wife, 
and made sure that she knew that they were there for her at the 
church. And I remember her telling me not long after she met 
Steve Bough, ``You know, you need to do something for him 
someday. He is a class act. He is a smart man.''
    I am really pleased that the White House has nominated him 
for this important job as district judge. He has been in the 
courtroom so many times. He understands that litigants need 
fair and--fair decisions that are made quickly, that all of the 
pleadings need to be read and appreciated, and the work that 
lawyers put into cases need to be consumed by judges, not just 
by people who work for them. And he will never get ``robitis.'' 
This is somebody who does not have an arrogant bone in his 
body, and even though his appointment is for his life, he will 
be humble his entire life as he sits in this important position 
in our judiciary.
    I appreciate very much the opportunity to introduce him to 
you today. I can confidently recommend his confirmation, and 
thank you very much for giving me this time.
    Senator Whitehouse. Thank you very much, Senator McCaskill. 
And I know that you have important and pressing business, so 
feel free to excuse yourself whenever you wish.
    After Mr. Bough, the rest of the nominees make this 
Pennsylvania Day here in the Judiciary Committee, so let us 
begin with my distinguished colleague, Senator Toomey.

           PRESENTATION OF WENDY BEETLESTONE, NOMINEE
        TO BE DISTRICT JUDGE FOR THE EASTERN DISTRICT OF
          PENNSYLVANIA; MARK A. KEARNEY, NOMINEE TO BE
DISTRICT JUDGE FOR THE EASTERN DISTRICT OF PENNSYLVANIA; JOSEPH 
 F. LEESON, JR., NOMINEE TO BE DISTRICT JUDGE FOR THE EASTERN 
DISTRICT OF PENNSYLVANIA; AND GERALD J. PAPPERT, NOMINEE TO BE 
  DISTRICT JUDGE FOR THE EASTERN DISTRICT OF PENNSYLVANIA, BY
   HON. PATRICK J. TOOMEY, A U.S. SENATOR FROM THE STATE OF 
                          PENNSYLVANIA

    Senator Toomey. Thank you very much, Chairman Whitehouse, 
and Pennsylvania Day is always a good day. So I am delighted to 
have this opportunity----
    Senator Whitehouse. We are partial to Rhode Island Day and 
Iowa Day, too.
    [Laughter.]
    Senator Toomey. I am sure those are lovely days as well.
    Ranking Member Grassley, thank you very much also for all 
of your cooperation. Thank you for the opportunity to introduce 
four outstanding Pennsylvanians: Mr. Jerry Pappert, Ms. Wendy 
Beetlestone, Mr. Mark Kearney, and Mr. Joseph Leeson, all 
nominated by President Obama on June 16th of this year. And I 
appreciate the timely scheduling of this hearing and the 
efforts that you have made, in particular Senator Grassley, and 
others, to keep these four together so that we can continue to 
fill the vacancies that occur in Pennsylvania's three 
districts.
    I also want to thank Senator Casey, who is not here at the 
moment. I think he will be joining us. But Senator Casey has 
been a terrific colleague for collaboration in particular with 
respect to filling these vacancies. Together he and I have now 
been able to usher 11 Pennsylvanians through this process--10 
district court judges, one of whom is now sitting in Reading, 
Pennsylvania; another in Easton, Pennsylvania. I mention those 
two because those courthouses had been vacant for many years 
prior to the confirmation of judges there. We have also placed 
a judge in Williamsport, also a courthouse that had been vacant 
for some time.
    We have had a judge confirmed to the Third Circuit Court of 
Appeals, Cheryl Krause, who was confirmed just earlier this 
month. And we are committed to continuing to work with each 
other to fill the handful of remaining vacancies that we have.
    Senator Casey, I have just been talking about you, and I 
just appreciate the very cooperative effort that we have had 
together and the success we have been able to enjoy.
    Let me just say a few words briefly about the four 
candidates we have before us today.
    First, Jerry Pappert has a terrific and diverse and very 
extensive legal experience. He is a partner with Cozen 
O'Connor. He has worked extensively on commercial litigation. 
He is a former Attorney General for Pennsylvania. He has 
successfully argued cases before the U.S. and the Pennsylvania 
Supreme Courts, won a landmark U.S. Supreme Court decision 
unanimously, the Booth v. Churner decision, that set forth the 
administration exhaustion requirement for a prisoner seeking to 
sue in Federal court.
    Jerry Pappert has enforced Pennsylvania's consumer 
protection laws, sued drug companies for price fixing, received 
a $19 million settlement. Mr. Pappert's diverse experience and 
really very keen intellect will serve him very well on the 
Federal bench.
    Wendy Beetlestone is also a very experienced litigator. She 
also happens to be an expert in education law. She is currently 
a shareholder at Hangley, Aronchick, Segal and Pudlin. She has 
litigated a number of very complex, major commercial disputes. 
She has been the general counsel for the Philadelphia School 
District, led 19 lawyers serving the school district, and 
represented the Philadelphia School District in a number of 
important litigations.
    She serves on numerous boards and advisory committees, on 
the Education Law Association, which is a nonprofit that offers 
information on current legal issues affecting education, on the 
Pennsylvania State Boards of Higher Education and Vocational 
Education. Ms. Beetlestone's litigation experience and the care 
and commitment she has demonstrated to her community will make 
her a great addition to the Eastern District Court of 
Pennsylvania.
    Mark Kearney is a very successful attorney. He is a 
managing shareholder at Elliott, Greenleaf, and Siedzikowski, 
where he has worked for 24 years practicing principally 
commercial litigation. He has done a lot of pro bono work, 
especially helping victims of child abuse. Mr. Kearney has also 
worked on an issue that is very important to me personally, and 
that is, helping to protect our children from predators in the 
first place. He has worked with the Montgomery Child Advocacy 
Project, representing children in criminal, dependency, and 
civil matters. Mr. Kearney is an outstanding lawyer and I 
believe an excellent candidate for the Federal bench.
    And then, finally, Joseph Leeson. Jay Leeson is a very 
respected lawyer in Allentown, Pennsylvania. He is a partner in 
Leeson and Leeson, has ample trial experience. His practice 
includes litigation, municipal law, nonprofit, and religious 
law. His commitment to public service is exemplary. He is 
currently the solicitor for Northampton County. He has served 
as the Bethlehem city solicitor. If confirmed, Mr. Leeson will 
sit in the Allentown courthouse, and I think that is important, 
Mr. Chairman, because it will be the first time that Allentown 
has had two Federal judges serving in the Allentown courthouse 
at the same time. And as the third largest city in 
Pennsylvania, and as the heart of the third largest region, the 
Lehigh Valley of Pennsylvania, we need to have a second Federal 
judge in the Allentown courthouse, and Mr. Leeson has indicated 
his intention to serve there.
    So all of these candidates have the crucial qualities that 
are necessary to be an outstanding Federal judge. They have the 
intellect, they have the integrity, they have the commitment to 
public service, and they have respect for the limited role that 
the judiciary has in our constitutional system.
    So I am delighted that each of them is willing to serve in 
this capacity. Again, I want to thank the Committee for this 
timely hearing, and I hope that they are favorably reported. 
They are all outstanding nominees, and I thank you, Mr. 
Chairman.
    Senator Whitehouse. Thank you, Senator Toomey.
    The senior Senator from the great State of Pennsylvania has 
now arrived, and I recognize Senator Bob Casey.

           PRESENTATION OF WENDY BEETLESTONE, NOMINEE
        TO BE DISTRICT JUDGE FOR THE EASTERN DISTRICT OF
          PENNSYLVANIA; MARK A. KEARNEY, NOMINEE TO BE
DISTRICT JUDGE FOR THE EASTERN DISTRICT OF PENNSYLVANIA; JOSEPH 
 F. LEESON, JR., NOMINEE TO BE DISTRICT JUDGE FOR THE EASTERN 
DISTRICT OF PENNSYLVANIA; AND GERALD J. PAPPERT, NOMINEE TO BE 
  DISTRICT JUDGE FOR THE EASTERN DISTRICT OF PENNSYLVANIA, BY
  HON. ROBERT P. CASEY, JR., A U.S. SENATOR FROM THE STATE OF 
                          PENNSYLVANIA

    Senator Casey. Mr. Chairman, thank you very much. I am 
honored to be before you, Senator Grassley as well. And I want 
to thank Senator Toomey not only for providing a summary of the 
experience and the qualifications of each of our nominees, but 
in a larger sense, even beyond today, for the work that we do 
together to try to arrive at a consensus in our State when it 
comes to candidates who come before both of us to seek 
nomination from the President for the district courts in our 
State. We have three Federal judicial districts. We get a lot 
of qualified people that come before us, and to arrive at a 
consensus is difficult and challenging. But it has been an 
honor to work with him in that process.
    I will not reiterate every part of the biographies and 
credentials of each of our candidates. I will summarize. But I 
think when it comes to each of these four, let me say first 
that I know each of them individually, have known them all for 
years, literally, some longer than others but many years in 
each case.
    I think probably what unites all of them is a combination 
of factors or credentials or qualifications which prepares them 
well to serve on the United States District Court for the 
Eastern District of Pennsylvania. One of those would be 
academic achievements. You know from their educational 
background, both undergraduate and law schools, you know of 
that part of their record.
    Second, I would say by way of experience, wide and diverse 
experience in the law, experience in front of all kinds of 
courts, including Federal courts.
    And then, third, in addition to that--I should say in 
addition to that experience, I would say public service as well 
in each of their cases.
    And then, third, the character and temperament, what we can 
best anticipate as what would be their judicial temperament as 
judges. But I think in each case they are people of high 
integrity.
    Let me just do a quick highlight of some of them.
    I have known Wendy Beetlestone for about a decade now or 
more, and Senator Toomey outlined her background, her academic 
background at the University of Pennsylvania Law School and 
Liverpool University, as well as her work as a law clerk for 
Federal Judge Gawthrop in the Eastern District--I am sorry, the 
Court of Appeals in Pennsylvania, as well as her work on 
education law and the public service that that entailed for the 
school district of Philadelphia, her private practice at the 
Hangley, Aronchick firm. So I know her to be someone who not 
only possesses the qualifications and the capability to be an 
effective Federal judge, but also the character as well.
    Mark Kearney I have known for more than--probably more than 
10 years now, it is more like 20 or 25. Senator Toomey outlined 
his work at the Elliott, Greenleaf and Siedzikowski firm since 
1990, clerking on the Delaware Court of Chancery, one of our 
most significant courts in the country dealing with matters--a 
range of matters with corporations and other matters that come 
before that court. Senator Toomey mentioned his advocacy for 
children, especially in a volunteer capacity, and his academic 
background.
    Mark is someone who I think understands, just as Wendy 
does, that when people come before Federal courts, they do not 
always come with power and influence. Sometimes the only shot 
they have is to come before that district court and that judge, 
and I think he will be a very strong Federal judge, as would 
Wendy.
    Jay Leeson I have known probably the longest of our 
candidates. I have known Jay not since he started in 1980 with 
his family's law firm, but not long after that, getting to know 
him in the world of government and politics, as well as our 
parents knowing each other for literally decades. Public 
service on the city council of Bethlehem, city solicitor as 
well. He went to the same law school I went to. That should 
not--we should recommend him in every instance, but I think it 
is a very strong law school, Catholic University of America, of 
course, graduating from DeSales University as well. Jay is 
someone who takes his job as a lawyer and advocate very 
seriously. I think he is the kind of person that we want in a 
Federal court because of his integrity and because of his broad 
experience as a lawyer and his commitment to public service.
    And then Jerry Pappert, someone that I got to know when I 
was in State government, he was the first Deputy Attorney 
General for Attorney General Mike Fisher, who was elected the 
same year I was elected as Auditor General. We were both 
statewide elected officials and had to work together and did 
work together well. I got to know Jerry in those years. Then 
later, of course, he became the Attorney General of the State 
after Attorney General Fisher became a Federal court of appeals 
judge, working as a partner at Cozen O'Connor and prior to that 
at the Duane Morris law firm. Again, tremendous public and 
private sector experience, the right kind of temperament and 
qualifications that we would expect from anyone serving on the 
United States District Court.
    So I think in each of these cases, they are people that do 
possess the experience and the commitment to public service we 
would hope for, but also that very critical ingredient, which 
is integrity and the kind of judicial temperament we would hope 
every judge possesses.
    So with that, and we can certainly supplement the record 
with more, I want to thank you for this opportunity and 
recommend all four of these with enthusiasm and gusto. And, 
again, I want to thank Senator Toomey for his commitment to 
working through our process.
    Senator Whitehouse. Let me thank you both. The process by 
which United States Senators make recommendations to the 
President as to who should be the nominee to the United States 
District Court in their home State is a very important one, and 
it is one that I think we on the Judiciary Committee should 
value a lot. Nobody knows their community better than the 
Senators from that community in the Senate, and these are very 
public acts to recommend someone. And when that comes, I think 
our colleagues take that responsibility very seriously. And the 
importance of not only the recommendation to the White House 
but the willingness of Senators to depart from their busy 
schedules to come here and speak for their nominees is 
something that is significant and appreciated.
    But I do know you both have busy schedules to get to, so 
let me excuse you from this hearing, and we will bring forward 
the nominees and proceed with our opening statements and get 
underway.
    Thank you very, very much.
    [Pause.]
    Senator Whitehouse. Does everybody know where to sit? Well, 
before you sit, let me ask you all to stand and affirm that the 
testimony you are about to give before the Committee will be 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    Mr. Bough. I do.
    Mr. Bonilla. I do.
    Ms. Beetlestone. I do.
    Mr. Kearney. I do.
    Mr. Leeson. I do.
    Mr. Pappert. I do.
    Senator Whitehouse. Please be seated, and welcome to the 
Judiciary Committee. I know this is a proud day for you and for 
your families, and we appreciate that very much.
    We are here to consider six nominations to the Federal 
bench: Stephen Bough, nominated to the U.S. District Court for 
the District of Missouri; Armando Bonilla, nominated to the 
U.S. Court of Federal Claims; Wendy Beetlestone, Mark Kearney, 
Joseph leeson, and Gerald Pappert, all nominated to the U.S. 
District Court for the Eastern District of Pennsylvania.
    I welcome each of you and your families and your friends to 
the U.S. Senate, and for those who are participating 
electronically, I welcome them as well.
    Voting to confirm an individual to the Federal bench is one 
of the most important and lasting decisions that a Senator can 
make. Every day Federal judges make decisions that affect the 
lives of ordinary Americans in all walks of life, often in 
vital ways for that individual.
    In performing that function, judges must respect the role 
of Congress as the elected representatives of the American 
people. They must decide cases based on the law and the facts. 
They must not prejudge any case but listen to every party that 
comes before them with an open mind. They must respect 
precedent, and they must limit themselves to the issues that 
the court must decide in the matter before them. I hope that 
each judicial nominee that we hear from today understands the 
importance of those baseline principles.
    Judicial nominees also must have the requisite legal skill 
to serve as a Federal judge. Each of today's nominees has an 
impressive record of achievement. As a result, I believe that 
each nomination deserves prompt and favorable consideration. We 
need good judges for our system of justice to function.
    I also think it is important that our judges respect the 
function of the jury. The jury is an important element in our 
constitutional system of Government. Blackstone himself wrote 
that, ``The most powerful individual in the state will be 
cautious of committing any flagrant invasion of another's right 
when he knows that the fact of his oppression must be examined 
and decided by 12 indifferent men.'' Now, of course, to him, 
``indifferent'' meant something a little different than what we 
now mean. It meant ``impartial.'' And ``men'' is now ``men and 
women,'' thankfully. But the principle behind Blackstone's 
comment I think is true. The jury is an important element in 
our structure of Government that can hold to actual individuals 
and institutions that may not be able to be held to account in 
any other form of Government, which is why de Tocqueville in 
``Democracy in America'' wrote that the jury is, before 
everything, a political institution, one ought to consider it 
as a mode of the sovereignty of the people. Each of you will 
have the chance to manage juries, I hope, and I hope that you 
treat them with respect and allow them to have the role that 
they deserve.
    Before I turn to our Ranking Member Senator Grassley, let 
me do two brief orders of business.
    One, I would like to welcome and introduce Armando Bonilla. 
As an appointee to the Federal Court of Claims, he does not 
have a home State Senator to make his introduction. He is 
nominated to the U.S. Court of Federal Claims for a 15-year 
term. He spent his entire legal career serving in the 
Department of Justice. Since March 2014, he served as an 
Associate Deputy Attorney General in the U.S. Department of 
Justice's Office of the Deputy Attorney General, and for those 
of us who have served in the Department of Justice, we know 
that that office is an extraordinarily busy one where virtually 
every difficult issue the Department faces comes.
    He before that served as senior counsel and previously as a 
trial attorney in the Civil and Criminal Divisions of the 
Department. He has also taught as an adjunct professor at the 
George Washington University School of Law. Although born in 
New York, Mr. Bonilla received his B.A. from West Virginia 
University and his J.D. magna cum laude from Seton Hall 
University. After graduating law school, he clerked himself for 
U.S. District Court Judge Garrett E. Brown from the District of 
Delaware.
    So now everyone stands introduced, and I would like to ask 
unanimous consent to put into the record a letter that I 
received from Gerald Coyne in support of Mr. Pappert, who is 
here. When I was the Attorney General in Rhode Island, I hired 
Jerry to be my Deputy Attorney General. He did a good enough 
job that every successive Attorney General after me has kept 
him on as the Deputy Attorney General. He is one of these quiet 
guys who just makes sure that everything runs calmly, on time, 
efficiently, and that the right answer is achieved. And so I 
take his recommendation very seriously, and I am very pleased 
that he wrote this letter, and without objection, it will be 
made a part of the record. Congratulations, Mr. Pappert, on a 
wonderful letter from somebody who in Rhode Island we value 
very highly.
    [The letter appears as a submission for the record.]
    Senator Whitehouse. I will turn now to my distinguished 
Ranking Member.

           OPENING STATEMENT OF HON. CHUCK GRASSLEY,
             A U.S. SENATOR FROM THE STATE OF IOWA

    Senator Grassley. Mr. Chairman, even though Mr. Bonilla did 
not have anybody to introduce him, you did a good job of that. 
Tim Kelly of my staff spoke very highly of him last night and 
made a 12-hour advanced introduction of him.
    First of all, to all of you, you are to be congratulated on 
this advancement of your political career, a very important 
milestone for you but also for your families and friends, and 
so we welcome you and congratulate you.
    Although we have these nomination hearings regularly--this 
is our 11th hearing this year--each one of them is a very 
serious and important event, much as the Chairman has just 
pointed out.
    All but one of you have been nominated to lifetime 
positions. When I consider each candidate, I look at their 
legal background and qualifications. I look at how long they 
have practiced law and what kind of experience they have. And I 
also consider what we refer to as temperament, demeanor, and 
commitment to integrity.
    I believe that temperament is just as important as legal 
qualifications. Our Federal judges need to be able to 
thoughtfully, calmly, and impartially consider each case before 
them. They need to treat all litigants that come before them 
with respect and dignity.
    Many of the candidates who come before us today have been 
politically active, and I have no problem with that. And I have 
voted for nominees whose political preferences are far 
different from mine. But I do believe that we can learn a lot 
about someone's potential judicial demeanor based on how they 
have treated those who disagree with them politically. Have 
they been fair and respectful in their political discourse?
    I understand political passion. And as the old saying goes, 
``Politics ain't beanbag.'' But the power of our judiciary 
rests entirely on the people's confidence in impartiality. And 
we can debate how far is too far in politics, but we can all 
agree that what may be in bounds in the political arena may not 
be appropriate for the Federal judiciary.
    If litigants doubt a judge's ability to be impartial and 
treat those in front of him or her with respect, then 
confidence in our judicial system will erode quickly if they 
cannot count on that. And, of course, that concerns me.
    During today's hearing I look forward to engaging in a 
discussion with each of you. I doubt if I will have time to ask 
each of you the length and breadth of questions I would like 
to, so you will probably get some questions to respond in 
writing. I appreciate your responses to those.
    While the President's job to nominate, it is the Senate's 
job to consider whether to confirm each of you to the position 
you have been nominated for. Congratulations once again, and I 
yield.
    Senator Whitehouse. Thank you very much, Senator Grassley.
    Let me give each of the nominees a chance to make an 
opening statement here, and we would welcome your introduction 
of family members and friends who are with you. So let us 
proceed right across the table. Let me see. It is not quite 
alphabetical, but anyway, we will go from left to right, 
starting with Mr. Bough. Please proceed.

STATEMENT OF STEPHEN R. BOUGH, NOMINEE TO BE DISTRICT JUDGE FOR 
                THE WESTERN DISTRICT OF MISSOURI

    Mr. Bough. Thank you, Senator. I would like to thank the 
President for nominating me and Chairman Leahy and Chairman 
Whitehouse and Ranking Member Grassley. I would like to thank 
both Senator McCaskill and Senator Blunt for giving me the 
opportunity to be here today.
    I would also like to introduce my family again: my 
daughter, Ashley, who just turned 16; my wife, Andrea Bough, 
who is an attorney in Kansas City at Lewis, Rice and Fingersh; 
and my son, Grant Bough, who will be turning 11 next month.
    Senator Whitehouse. He would be the one in the bow tie?
    Mr. Bough. He would be the good-looking young man in the 
bow tie.
    Senator Whitehouse. Very good.
    Mr. Bough. Thank you, Senator.
    [The biographical information of Mr. Bough appears as a 
submission for the record.]
    Senator Whitehouse. Mr. Bonilla, please proceed.

           STATEMENT OF ARMANDO OMAR BONILLA, NOMINEE
           TO BE JUDGE OF THE COURT OF FEDERAL CLAIMS

    Mr. Bonilla. Thank you, Chairman Whitehouse, for that kind 
introduction, and Ranking Member Grassley and Members of the 
Senate Judiciary Committee for scheduling this hearing to 
consider our nominations.
    I would also like to thank President Obama for bestowing 
upon me the highest honor of my professional career in 
nominating me to serve on the court where I learned to be a 
trial lawyer 20 years ago.
    Here with me today are my wife of 10 years, Dr. Jacqueline 
Wright Bonilla, who served as an administrative patent judge; 
our daughter, Brycen, who is 9; and our son, Armando, who goes 
by ``AJ,'' who is 6; my mother, Aleida Bonilla; and a dear 
friend of the family for over 40 years, Harold Paul.
    Seated with my family are my closest friends and the 
godparents to my children, Amy Brown and Karen Fisher, who has 
the honor of serving for Senator Wyden; and two people who 
started with me 20 years ago at the Department of Justice: 
Federal Circuit Judge Todd Hughes and Laura Loomis Ramone.
    Sadly, my father passed away shortly after I joined the 
Department of Justice and can only be here in spirit. He was a 
man who worked two and three jobs to make sure that my life's 
ambitions and dreams would not be limited. And he and my mother 
raised me to truly believe that a person who grows up cleaning 
law firm offices at night with his parents can someday be 
nominated by the President and considered by the Senate for a 
seat on the Federal bench. He truly would have loved this day.
    I would like to welcome via the Webcast my sister, Barbara, 
and her partner, Bob Feldman, who I believe are sitting on a 
beach somewhere watching this on their iPad; and a dear friend 
of mine for over 20 years, Colleen Conrey; and from the west 
coast, my mother-in-law, Joy Adams; my father-in-law, Paul 
Wright, and his partner, Lenora; and my brothers-in-law Mike, 
Mark, and Alex Wright, and his wife, Nicole, who welcomed their 
first child into this world earlier this week.
    And, finally, I would like to thank my Justice Department 
colleagues, past and present, some of whom are here today, for 
their service to this Nation and for making the Department of 
Justice an amazing place to work and to learn and for sharing 
with me their talents.
    I thank you again for considering my nomination.
    [The biographical information of Mr. Bonilla appears as a 
submission for the record.]
    Senator Whitehouse. Thanks, Mr. Bonilla.
    Ms. Beetlestone, welcome.

         STATEMENT OF WENDY BEETLESTONE, NOMINEE TO BE
    DISTRICT JUDGE FOR THE EASTERN DISTRICT OF PENNSYLVANIA

    Ms. Beetlestone. Thank you, Senator. I would like to take 
this opportunity to thank President Obama for honoring me with 
this nomination. I would also like to thank Senators Casey and 
Toomey for their kind words and their support through this 
process.
    Senator Whitehouse and Ranking Member Senator Grassley, 
thank you so much for the hard work that you do on this 
Committee.
    I have a fair number of family members today in the 
audience: my husband, John, John Detre; our daughter Claudia 
Detre, who is going into the University of Pennsylvania 
engineering program in just a few weeks; and daughter Naomi 
Detre who is 16 and just about to go into the process of 
deciding which college she is going to go to; my mother, Clare, 
my sister, Linda, and her husband, Andy Bowen; as well as my 
niece, their daughter, Eleanor ``Nell'' Bowen; my brother, 
Philip, who flew all the way from Botswana; and I am 
particularly appreciative that the hearing actually occurred 
when he was here in the country; and our dear friends, Chris 
Simpson and Joanna Crawford.
    Thank you so much.
    [The biographical information of Ms. Beetlestone appears as 
a submission for the record.]
    Senator Whitehouse. Thank you very much, Ms. Beetlestone.
    Mr. Kearney.

STATEMENT OF MARK A. KEARNEY, NOMINEE TO BE DISTRICT JUDGE FOR 
              THE EASTERN DISTRICT OF PENNSYLVANIA

    Mr. Kearney. Good morning, Senator.
    Senator Whitehouse. Good morning.
    Mr. Kearney. Thank you, Mr. Chairman, thank you, Mr. 
Ranking Member, for the opportunity to address you.
    I want to thank Senator Bob Casey and Senator Pat Toomey. 
We sit here in this spot realizing how fortunate we are in 
Pennsylvania to have two distinguished servants who really 
benefit all Americans by the process that they engage in for 
this service.
    I want to thank President Obama. The honor that he has 
given my family is humbling and will be forever--we will be 
forever grateful for his confidence.
    I also have a series of family members who commuted from 
Pennsylvania and elsewhere to be here, and I would like to take 
a moment to recognize them.
    I would like to start, of course, where I always start, 
with my wife, Eileen. Eileen is the bedrock of everything we 
see, and I thank her for being here and being here every day.
    I would like to introduce my son, Seamus. Seamus is going 
into 9th grade at Ian Academy; my daughter, Mary, is going into 
7th grade at Norwood-Fontbonne. Both schools are in Montgomery 
County, Pennsylvania, where we are from.
    I would like to introduce my sister, Karen Finnegan. Karen 
is here with her husband, Michael Finnegan; my godson, Michael 
Finnegan; and my niece, Kate Finnegan.
    My father passed a few years ago, and he would have greatly 
enjoyed this. The person who most looks like him in the world 
is here, and that is his sister, my aunt Marie, known as Peony 
Scullin, who is here at every one of these events my entire 
life, and she is here today with her daughter, my cousin, 
Teresa Scullin.
    My mom passed in 2012. The woman who looks most like my mom 
is here, and that is Mrs. Agatha Kane, known as Aunt Aggie. And 
I am so grateful that she is here. She is here with her 
daughters, my cousins, Eileen and Denise.
    I am also blessed that two friends drove down from 
Philadelphia this morning, two very busy lawyers and 
businesspeople.
    First is my best man and dearest friend, Tom Egan. Tom 
Egan's name resonates in the Eastern District of Pennsylvania. 
His grandfather was a distinguished jurist on the Eastern 
District of Pennsylvania. Tom is a very distinguished trial 
lawyer in the Eastern District of Pennsylvania, and I am 
honored that he is here. He is also the godfather of my 
daughter, Mary.
    I am also blessed that my friend, Ken Tepper is here. Ken 
also worked with me at the Elliott, Greenleaf firm and is a 
long-time friend and confidante. I am honored he would take 
time to come see me.
    I also have to thank those people who could not be here but 
are, I am sure, watching on Webcasts, and I started, of course, 
with Eileen's family: her mom, Eve Brennan, who I am sure is 
watching. I also thank the very talented and extraordinary 
trial lawyers at my law firm, Elliott, Greenleaf, for all they 
have done for me and for all they have taught me.
    I want to thank my friends in the Delaware bar. I was 
hoping to say hello to Senator Coons. As you may know, I 
started in the Delaware bar and clerked in the Court of 
Chancery, and I have a great affection for the practice of law 
in the Chancery Court.
    And I would like to thank my friends at the Montgomery 
County bar and bench who have been so instructive to me, both 
in collegiality and excellence, and in demeanor, and I thank 
them.
    And, last, I have had the opportunity, Mr. Chairman, to 
serve as a baseball coach for many years. It is a great 
opportunity to train and teach. And I want to thank the many 
people who are watching on webcast, and, in fact, a family that 
drove down here who I had the opportunity to coach.
    So thank you very much. I look forward to answering your 
and the Ranking Member's questions.
    [The biographical information of Mr. Kearney appears as a 
submission for the record.]
    Senator Whitehouse. You are most welcome.
    And we will turn now to Mr. Leeson.

       STATEMENT OF JOSEPH F. LEESON, JR., NOMINEE TO BE
    DISTRICT JUDGE FOR THE EASTERN DISTRICT OF PENNSYLVANIA

    Mr. Leeson. Senator Whitehouse, I would like to thank you 
and Senator Grassley for convening this hearing to evaluate and 
consider my nomination as well as that of my fellow nominees 
here today.
    I would like to thank the President for making this 
nomination. I would like to thank Senators Casey and Toomey for 
their recommendation of me to the President and for their kind 
and supportive words this morning.
    I would like to acknowledge and thank the presence of my 
wife, Loretta Leeson, who is here today; my son Joseph Leeson 
III, who is also with us today; my daughter Patricia Leeson, 
who is here with us today; my son Robert Leeson, who is here 
with us today; and my other two children, Maureen Leeson and 
Kathleen Leeson. Maureen is in Seattle, Washington, working, 
and my daughter Kathleen is in Pennsylvania working today, and 
I know they will be watching either contemporaneously by 
Webcast or later today watch the Webcast of this. And I thank 
them for their love and support. They are the joy of my life, 
my wife and my children. And I thank you again for convening 
this hearing.
    [The biographical information of Mr. Leeson appears as a 
submission for the record.]
    Senator Whitehouse. Thanks, Mr. Leeson.
    And the final member of the panel, Gerald Pappert. Let me 
also offer, without objection, into the record of this hearing 
a letter that Chairman Leahy has provided me from my former 
colleague, the Attorney General of Vermont, Bill Sorrell. And 
without objection, that will be added to the record also in 
support of Mr. Pappert.
    [The letter appears as a submission for the record.]
    Senator Whitehouse. Please proceed.

         STATEMENT OF GERALD J. PAPPERT, NOMINEE TO BE
    DISTRICT JUDGE FOR THE EASTERN DISTRICT OF PENNSYLVANIA

    Mr. Pappert. Senator Whitehouse, thank you very much for 
those kinds words and for passing along the support of General 
Sorrell and Chief Deputy Coyne.
    Thank you to all of the Members of the Committee. Senator 
Grassley, thank you very much for everything you did along with 
the other Members of the Committee to enable me to be before 
the Committee for your consideration today. I am deeply 
grateful to you.
    I want to thank, of course, Senators Toomey and Casey for 
their confidence and trust in me and their recommendation to 
the President, and thank the President for the honor of 
nominating me to this very important position.
    Of course, all thanks start with, for all of us, our 
spouses and our children. I want to thank my wife, Ellen, and 
daughter, Mary, for their love and support. Mary will be 
beginning high school this year. They are watching us on the 
Webcast.
    And I want to thank some family and friends who are here 
with me today, specifically my niece, Kate Dugan, who joined us 
today, and particularly my friend and mentor and former boss, 
Judge Mike Fisher, former Attorney General Fisher, and his 
wife, Carol.
    Of course, I was Mike's first deputy in the office, which 
is where I got to know Jerry Coyne so well, and if I have the 
honor and privilege of being confirmed to this position by the 
Senate, Mike, who now sits on the Third Circuit, will once 
again be reviewing my work. So I hope he looks forward to that 
as much as I do. But I am grateful to Mike and Carol and to 
Kate for being here.
    I am honored to be before you today, Senator, and I look 
forward to answering any questions that you or any other 
Members of the Committee may have.
    Thank you.
    [The biographical information of Mr. Pappert appears as a 
submission for the record.]
    Senator Whitehouse. Thank you very much, Mr. Pappert. Thank 
you for mentioning that Judge Fisher is here. I see him now, 
but I did not see him earlier. We served as Attorneys General 
together along with Attorney General Sorrell from Vermont, and 
it is terrific that he has taken the trouble. General, Your 
Honor, welcome. Thank you for joining us.
    You were here for my opening statement. I made a list of 
what I think are the baseline rules for district judges to 
follow. To repeat, they are that judges should respect the role 
of Congress as the elected representatives of the American 
people; that they should decide cases based on the law and the 
facts; that they should not prejudge any case but listen fairly 
and with an open mind to everyone that comes before them; that 
they should respect the precedent that has been laid down; and 
that they should limit themselves to the issues that are before 
them that the court must decide. I think those are, as I said, 
baseline considerations, but baseline considerations are always 
worth reiteration, and I just want to hear from each of you 
that you support those rules and will abide by them as United 
States district judge, if confirmed.
    Mr. Bough. Senator Whitehouse, I have heard those rules, 
and I will fully abide by them.
    Senator Whitehouse. Mr. Bonilla.
    Mr. Bonilla. Yes, Senator, I agree.
    Senator Whitehouse. Ms. Beetlestone.
    Ms. Beetlestone. I agree also.
    Mr. Kearney. I agree.
    Mr. Leeson. I agree, fully committed.
    Mr. Pappert. Yes, Senator, I agree as well. Thank you.
    Senator Whitehouse. Thank you. I know that is pretty 
straightforward stuff, but, still, it is good to make that 
record.
    The other concern that I bring to this hearing is that, in 
the way that I look at our history and in the way that I look 
at our system of justice, the jury plays a very important role. 
It is one of the few places where ordinary men and women have 
the opportunity to participate in an office of government, 
which the jury is, and to make firsthand and in the community 
decisions that can be vital to that community and are very 
often absolutely vital to the party that is before them.
    I would also note that the jury is an institution that is 
very hard to play politics with. Tampering with the views of 
the executive branch and the legislative branch is a constant 
pastime, and we license it through lobbying and campaign 
finance activities. Tampering with a jury is a crime, and that 
means that the jury can be the last place where someone who is 
unpopular or someone who has powerful adversaries can get a 
fair shake. And what I look out and see is an institution of 
government that is dying and shriveling, that is increasingly 
hard to get before, that is increasingly rare, and my concern 
is that too many judges now see the jury as sort of a fact-
finding appendage to the court that if you can get cases by 
them without going to them, then it will save them the trouble 
of having to sit on cases, and it will allow the court to move 
its calendar, and that is kind of the end of the lesson.
    I think that there is harm done by that view of the world 
to the very structure of our Government, and that the more we 
can take as democratic and powerful an institution as the jury 
into our lives, the better off we are.
    So, in any event, some of you had lots of experience with 
juries. I would like to hear a word from each of you about the 
jury and its role in our system of Government and how you would 
see operating with juries in your courtroom if you are 
confirmed. We will start again--let us go the other way this 
time, just to shake it up. Mr. Pappert, you lead off.
    Mr. Pappert. Thank you, Senator, very much. The jury 
system, of course, is the bedrock of our judicial system and 
our constitutional structure here in the country, and I think 
that it is crucial to respect at all points along the timeline 
in a litigation matter the role of the jury and to allow the 
jury to serve its function.
    Finally, I think it is important for a trial court judge to 
recognize the sacrifice that the individual jurors make to sit 
on juries and to provide the essence of the system for us and 
to treat them respectfully and accordingly.
    Thank you.
    Mr. Leeson. Senator, I have spent much of my professional 
life trying cases in front of juries. They are a fundamental 
part of the bedrock of our democracy. No less a personage than 
Thomas Jefferson himself once said that the jury system is the 
great equalizer between the powerful and the powerless. And I 
have observed that in my own work that people can come into 
court, get a fair shake from 12 citizens, their peers, hear 
their case and decide it fairly.
    I am fully committed to the jury system. I want to see it 
strong, and I believe fully in it 100 percent.
    Senator Whitehouse. Thank you very much.
    Mr. Kearney.
    Mr. Kearney. Thank you, Senator, for the question. As a 
commercial trial lawyer, I recognize, maybe uniquely, the role 
the jury has in those type of disputes. Oftentimes, as Mr. 
Chairman mentioned, courts will look beyond that because they 
may be business disputes and they can be decided on paper.
    My experience has always been that the jury is the great 
equalizer, to borrow my colleague's quote. It is absolutely 
what works in the system.
    Like Mr. Pappert, I would absolutely agree that the members 
of the jury, having served on a jury, the members of the jury 
deserve all the respect that should be accorded to them under 
the principles that have been, I think, since the 12th century. 
And I strongly believe that the lawyers who come--if I am 
honored enough to join that court, the lawyers that come before 
the judges should recognize at the end of the day this is a 
jury trial in most contexts.
    Senator Whitehouse. Thank you very much.
    Ms. Beetlestone.
    Ms. Beetlestone. Thank you for that question, Senator. If I 
am confirmed, I certainly would respect the jury. I have always 
respected and been honored in being called to jury selection, 
and if I were to have the honor of running a courtroom, I would 
honor the people who give their time and effort to serve on 
juries.
    My view is that in being a judge, one should respect 
procedure, one should respect substantive law, and also respect 
the parties, and the parties--by the ``parties,'' I mean 
litigants, attorneys, and particularly the jury.
    Thank you.
    Senator Whitehouse. Thank you, Ms. Beetlestone.
    Mr. Bonilla.
    Mr. Bonilla. Thank you, Senator. I agree with all the 
statements of my colleagues. Having tried a number of cases 
before juries and having observed a number of jury trials 
during my clerkship and having actually sat on a jury that went 
to verdict, I am in awe of how serious all the jurors take 
their responsibilities.
    Unfortunately, the Court of Federal Claims does not have 
jury trials. We only have bench trials, so I will not be given 
the privilege and the honor of working with jurors.
    Senator Whitehouse. You are exempt.
    [Laughter.]
    Senator Whitehouse. Mr. Bough.
    Mr. Bough. As a trial lawyer who has resolved many cases in 
front of a jury, I am a strong believer in the Seventh 
Amendment right to trial by jury. It is often said that the two 
most important boxes in the world are the ballot box and the 
jury box, and I strongly believe that.
    In my role as an attorney in Kansas City, I serve on an 
organization called the Missouri Institute for Justice, which 
has plaintiffs' lawyers and defense lawyers; the Chamber of 
Commerce is a member, and we collectively work in Jefferson 
City with Democrats and Republicans to ensure that our jury 
system is not tampered with and to ensure that our judges are 
nonpartisan in their actions. That is one of the proudest 
things I do.
    Senator Whitehouse. Thank you very much.
    I am now honored to turn to our Ranking Member, Senator 
Grassley.
    Senator Grassley. I hope none of you will be disappointed 
if I do not ask all of you questions. I think I am only going 
to take time for a couple questions of a couple people and then 
submit the rest of my questions for answer in writing.
    I am going to start with Mr. Bough. You have a reputation 
for writing quite a few blogs as a political leader. You wrote 
on a lot of political topics, but you also wrote about other 
issues such as what makes a good judge and what does not. And 
one time you maybe said something you might regret: ``Who reads 
this blog will agree I should not be a judge.''
    [Laughter.]
    Senator Grassley. So there are some who--now, I am not 
going to ask you questions about your blog. I am going to ask 
you questions about another matter. But I just wanted to make 
you aware that some question whether you possess the 
temperament we typically look for in a candidate for a Federal 
judge. I just wanted you to know in fairness that we will be 
taking a close look at your writings in the blog, and I imagine 
some of my colleagues will as well.
    Today, though, in the limited time, I would like to ask 
about some complaints you filed with the Federal Election 
Commission. According to the FEC records, you filed two 
complaints--one in 2008, one in 2012. The FEC dismissed both 
complaints. They dismissed the 2008 complaint with a brief 
summary opinion, and in 2012, you appeared to redouble your 
efforts. You filed a 93-page complaint against the same 
candidate. The FEC responded to the filing by dismissing all 
your complaints. Their dismissal provided a meticulous response 
to each of your claims and found that your complaints had ``no 
basis for its allegations.'' The ruling criticized your 
allegations as ``lacking adequate specificity,'' for being 
``vague and speculative and unsupported.''
    The bottom line is this: These complaints strike me as 
frivolous, and what troubles me about them is you appear to be 
utilizing this Government entity for purposes of harassing 
political opponents. So I would like to ask if you would 
identify, either now or you could do it later in writing, what 
evidence you had to support the following accusations that were 
not included in your complaint.
    In your 2012 complaint, you accused the candidate's 
campaign of, among other things, ``continuing failing to report 
expenditures'' related to billboard advertising. The Commission 
noted that your complaint provided ``no basis for its 
allegations,'' found that the allegations were ``vague and 
speculative,'' and concluded that there was ``no reason to 
believe the campaign failed to report expenditures.''
    Other than the de minimis material included in the appendix 
to the complaint, upon what evidence then did you base this 
allegation? That is one question. And then I will ask another 
question, and that will be it.
    Mr. Bough. Senator, thank you for that question. I did make 
those FEC filings relating to congressional races in the Kansas 
City area while I served as the Democratic Chairman. I believe 
that the FEC found that there were violations, but found that 
they were de minimis violations. However, I am a strong 
believer, as I think would serve me well if I have the honor to 
serve as a judge, that all the rules are to be followed, and 
that the system should work out those differences.
    The 2012 filing was 93 pages with attachments. I believe 
that there was specificity, which had to come through 93 pages 
and all the attachments.
    In particular, as to the billboard, the billboard was paid 
for, I believe, for 1 month and it was up for the entirety of 
the campaign season, and I will be more than glad to provide 
that additional information to you after this hearing.
    Senator Grassley. You also accused the candidate's campaign 
of illegally coordinating communication with a political action 
committee, Missouri Right to Life. The Commission noted that 
there was ``no substantial similarity'' between the two ads 
compared in your complaint and found that there was ``no reason 
to believe''--that is a quote--the campaign illegally 
coordinated communications other than the photograph of a 
Missouri Right to Life ad and the printout of the candidate's 
campaign website you included with your complaint. Upon what 
evidence did you base the allegation?
    Mr. Bough. Thank you, Senator. What we did provide the FEC, 
which shows a great level of specificity, that on the Right to 
Life web page that it mirrored the information on the 
candidate's web page, different word-for-word, verbatim 
coordination, and that will be information I will provide to 
you after this hearing.
    Senator Grassley. Okay.
    [The information referred to appears as a submission for 
the record.]
    Senator Grassley. Mr. Leeson, in June 2012, you 
participated in a religious freedom forum. The forum discussed 
the Health and Human Services mandate which is part of the 
Affordable Care Act. You made the comment that the HHS mandate 
is ``un-American, unprecedented, and blatantly 
unconstitutional'' and that it violated the First Amendment, 
the Administrative Procedures Act, and the Religious Freedom 
Restoration Act. Presumably, you were speaking about the 
mandate included in the Affordable Care Act that required some 
employers to provide abortion-inducing drugs.
    A, could you provide a context for that comment? What exact 
elements of the Affordable Care Act were you discussing? First 
question. And then I will follow it up.
    Mr. Leeson. The context is I was asked by one of my 
clients, the Catholic Diocese of Allentown, to represent it at 
this forum on the subject of the First Amendment and religious 
liberty. That was the context in which I was representing the 
client and made those remarks.
    Senator Grassley. And is that the exact element of the 
Affordable Care Act that you were discussing?
    Mr. Leeson. By sheer coincidence, my remarks were made 24 
hours, unknowingly, before the U.S. Supreme Court handed down 
its ruling declaring the Affordable Care Act constitutional. So 
at the time that I was discussing it, I was discussing the Act 
overall. There was a specific discussion on the mandate as 
well. And in retrospect, the use of the term ``un-American'' I 
think was not an appropriate choice of words on my part.
    Senator Grassley. Okay. And the last question, do you have 
any views that would make you unable to discharge your duties 
faithfully as a U.S. district judge?
    Mr. Leeson. No, Senator Grassley, there is nothing in my 
personal beliefs or my faith that would prevent me from 
applying and upholding all precedents, without exception, of 
the U.S. Supreme Court and the Third Circuit Court of Appeals. 
No exceptions.
    Senator Grassley. Thank you. And for the other four of you, 
I will have questions to submit in writing, and maybe for the 
other two some followup questions.
    [The questions of Ranking Member Grassley appear as 
submissions for the record.]
    Senator Grassley. Thank you very much.
    Mr. Bough. Thank you, Senator.
    Mr. Bonilla. Thank you, Senator.
    Ms. Beetlestone. Thank you, Senator.
    Mr. Kearney. Thank you, Senator.
    Mr. Kearney. Thank you, Senator.
    Mr. Pappert. Thank you, Senator.
    Senator Whitehouse. Very well. Thank you very much for the 
time you have spent with us this morning. Congratulations on 
your nominations. We wish you well in the process going 
forward. As you know, it is cumbersome, unwieldy, uncertain, 
among its other advantages. But very often it ends in a happy 
result, and 1 day you will be, with any luck, sitting behind 
the bench and this will only be a dim and distant memory, all 
that you have been through to get here.
    But I really do appreciate that each of you has 
demonstrated sufficient leadership in your communities and 
sufficient legal skill and sufficient character that your home 
State Senators and the President of the United States have 
recommended and selected you for these different positions. 
They are positions of great honor and trust, and we hope that 
as you go forward you will not only meet with success through 
the confirmation process, but that you will equip the duties 
that you will then assume with the distinction that they 
deserve.
    The hearing record will remain open for further materials 
for one additional week----
    Senator Grassley. We probably need to add that other 
Members will have questions in writing as well.
    Senator Whitehouse. Yes, and obviously your nomination will 
not go forward until those questions have been responded to. So 
I would advise dispatch in doing that.
    So best wishes to you all, and that will conclude the 
hearing.
    [Whereupon, at 11:14 a.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



 NOMINATIONS OF HON. MADELINE COX ARLEO, NOMINEE TO BE DISTRICT JUDGE 
                    FOR THE DISTRICT OF NEW JERSEY;
 VICTOR ALLEN BOLDEN, NOMINEE TO BE DISTRICT JUDGE FOR THE DISTRICT OF 
   CONNECTICUT; DAVID J. HALE, NOMINEE TO BE DISTRICT JUDGE FOR THE 
  WESTERN DISTRICT OF KENTUCKY; AND GREGORY N. STIVERS, NOMINEE TO BE 
          DISTRICT JUDGE FOR THE WESTERN DISTRICT OF KENTUCKY

                              ----------                              


                         TUESDAY, JULY 29, 2014

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:41 a.m., in
Room SD-226, Dirksen Senate Office Building, Hon. Richard 
Blumenthal, presiding.
    Present: Senators Blumenthal, Coons, and Grassley.
    Senator Blumenthal. We will now call the Judiciary 
Committee to order. We are today considering four nominees to 
district courts in the States of New Jersey, Connecticut, and 
Kentucky. And in consideration of the Senators' very busy 
schedules, I would like to begin by inviting Senator Paul of 
Kentucky and Senator Murphy of Connecticut to make introductory 
remarks about the nominees from their respective States.
    Senator Paul.

PRESENTATION OF DAVID J. HALE, NOMINEE TO BE DISTRICT JUDGE FOR 
   THE WESTERN DISTRICT OF KENTUCKY, AND GREGORY N. STIVERS, 
   NOMINEE TO BE DISTRICT JUDGE FOR THE WESTERN DISTRICT OF 
 KENTUCKY, BY HON. RAND PAUL, A U.S. SENATOR FROM THE STATE OF 
                            KENTUCKY

    Senator Paul. Thank you, Senator Coons, and thank you, 
Ranking Member Senator Grassley. Both Senator McConnell and I 
support these nominees, Greg Stivers and David Hale, to become 
district judges from Western Kentucky. We believe both of these 
gentlemen are highly regarded and would make great additions to 
the district court.
    I have known Greg Stivers for over 20 years. I have known 
him as a friend, a neighbor, and a father. He is respected in 
the community. He has wisdom, a sense of justice, and a 
fidelity to the rule of law.
    Greg Stivers earned his J.D. from the University of 
Kentucky in 1985, has practiced law in my home town of Bowling 
Green for many years, primarily focusing on employment, 
business, and real estate. Greg has served as president of the 
Big Brothers Big Sisters of South Central Kentucky. He is a 
founding board member of Western Kentucky Research Foundation 
and has served as president of Hilltopper Athletic Foundation. 
I think Greg Stivers will make a great Federal judge.
    David Hale is another proud graduate of the University of 
Kentucky College of Law. He was confirmed as a U.S. Attorney 
for the Western District of Kentucky in 2010. Formerly, David 
served as Assistant U.S. Attorney. During that time he 
prosecuted a vast array of criminal cases and represented the 
Government in numerous cases of civil litigation involving 
fraud against the Government. Previously, David served on the 
board for the Urban League of Louisville and Kentucky 
Educational TV, the State's public television network. In my 
interactions with him as a Senator, I have been particularly 
pleased by his responsiveness and respect for Congress. I think 
David will make a great Federal judge as well.
    Both of these nominees understand the role of a judge and 
will approach the job with a sense of justice expected by those 
who enter the courts. Their nominations are an example of all 
sides coming together in a bipartisan way for the good of the 
Commonwealth and the country. I look forward to their 
confirmation as a district judge and to your consideration of 
their confirmation.
    Thank you.
    Senator Blumenthal. Thank you very much, Senator Paul.
    And I do not know yet whether Senator McConnell----
    Senator Grassley. Could I speak to that point?
    Senator Blumenthal. Certainly. Senator Grassley.
    Senator Grassley. Senator McConnell was planning to be here 
this morning to introduce and show his support for the nominees 
from his State of Kentucky, as Senator Rand Paul has now. But 
because we got started late and his presence was needed on the 
Senate floor, he could not be here in person. So he was 
disappointed he could not be here and sent along a statement 
for the record that I would like to have inserted.
    Senator Blumenthal. Without objection.
    [The prepared statement of Senator McConnell appears as a 
submission for the record.]
    Senator Blumenthal. Thank you, Senator Paul.
    Senator Murphy, would you like to introduce the nominee 
from the State of Connecticut?

  PRESENTATION OF VICTOR ALLEN BOLDEN, NOMINEE TO BE DISTRICT 
  JUDGE FOR THE DISTRICT OF CONNECTICUT, BY HON. CHRISTOPHER 
      MURPHY, A U.S. SENATOR FROM THE STATE OF CONNECTICUT

    Senator Murphy. Thank you very much, Mr. Chairman, Ranking 
Member. Thank you for having me here today. It is my honor to 
introduce my friend, Victor Bolden, before the Committee. Mr. 
Bolden is one of Connecticut's most experienced and well-
qualified lawyers. He has clearly demonstrated the intellect, 
the integrity, and the life experience that will make him a 
capable Federal court judge.
    It is also terrific to see so many of his family members 
here with us today. I know he will introduce them to you.
    Victor was born in New York City in 1965 and received his 
bachelor's degree from Columbia University, went on to receive 
his law degree from Harvard. He has demonstrated a unique, 
lifelong commitment to public service, serving as an attorney 
for two national civil rights organizations, and as a 
corporation counsel for the city of New Haven. Along the way he 
has worked on some of the most significant civil rights cases 
of our time with distinction. And in addition, he has worked 
pro bono for a number of very important organizations in 
Connecticut, among them the Connecticut Food Bank and the 
Connecticut Veterans Legal Center.
    His experience and success as an advocate has been wide-
ranging. One of his colleagues wrote in support of his 
nomination to the bench, ``I am struck by the depth and breadth 
of Victor's experience as a trial and appellate lawyer in 
private practice, as a teacher, writer, and public speaker, as 
counsel to the NAACP and ACLU, and as corporation counsel to 
the State of New Haven. In each of these roles, Victor has 
impressed not only his colleagues but even those who have 
argued against him.''
    He previously worked at the NAACP Legal Defense and 
Educational Fund, serving as their general counsel. He then 
worked at the law firm--or before that worked at the law firm 
of Wiggin and Dana, one of our biggest firms in New Haven, 
Connecticut. He began his career at the American Civil 
Liberties Union Foundation.
    Most recently he has served New Haven as its corporation 
counsel, a position that he has held since 2009. It is there 
that he has gained broad bipartisan respect throughout the 
city, region, and State. It does not hurt that Victor is known 
for bringing cake to the staffers at City Hall every Friday 
afternoon. But he has gotten a reputation as a go-to guy in New 
Haven, especially from many of the young lawyers that he 
mentors.
    In short, Victor is a man who has consistently used his 
talents and passion to give back to the community around him. 
His entire life experience has prepared him to be a 
compassionate and impartial judge, and I am confident that 
Victor Bolden will be an outstanding addition to the Federal 
bench.
    Thank you very much, Mr. Chairman, for allowing me to 
introduce him today.
    Senator Blumenthal. Thank you both very much. Thank you for 
being here.
    For those who may not be familiar with our process, our two 
Senators who are here to introduce nominees from their States 
have other obligations, and they will probably leave to attend 
to Committee hearings and other business. Thank you so much for 
being here this morning.
    We will have one more Senator to introduce a nominee from 
his State, and I would just like to welcome everyone. And, 
Senator Menendez, thank you for joining us.

  PRESENTATION OF MADELINE COX ARLEO, NOMINEE TO BE DISTRICT 
JUDGE FOR THE DISTRICT OF NEW JERSEY, BY HON. ROBERT MENENDEZ, 
          A U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Menendez. Mr. Chairman, thank you very much for the 
opportunity, and to you and to the distinguished Ranking Member 
and to all the Members of the Committee, it is my pleasure and 
honor to come before the Committee today to introduce Madeline 
Cox Arleo, nominated to the U.S. District Court for New Jersey. 
She is a New Jerseyan who in her life and her career has 
embodied the qualities of respect for justice, the rule of law 
that we look for in all our judicial nominees.
    In nominating her, the President recognized her 
``unwavering commitment to justice and integrity and an 
impressive record of public service.'' And the American Bar 
Association rated her unanimously well qualified for the 
nomination, and I agree, as all who have practiced before her 
or served with her and known her would agree with that 
unanimously well qualified.
    I applaud the President's nomination of Judge Arleo. She is 
sharp, experienced, committed to justice, has the appropriate 
respect and deference to precedent, has the right type of 
judicial temperament that we want to see in district court 
judges, all of which are essential qualities of any great 
judge.
    She has demonstrated an impressive ability to manage 
complex legal cases throughout the course of her career and is 
clearly an incredibly great choice to serve as New Jersey's 
district court judge.
    I will look forward to her swift confirmation before the 
Committee and the full Senate and will work with Members of the 
Committee to be sure we can expedite the process as quickly as 
possible.
    Very briefly, prior to her appointment to the bench, Judge 
Arleo was a partner at Tompkins, McGuire, Wachenfeld and Barry, 
where she practiced and focused on civil litigation in State 
and Federal courts. She began her legal career as a law clerk 
to Justice Marie Garibaldi of the New Jersey Supreme Court. She 
received her J.D. summa cum laude from Seton Hall, her M.A. 
from Rutgers University, and her B.A. from Rutgers College. And 
as distinguished as a resume that may be, it does not paint the 
full portrait of her as a judge, as a respected and 
contributing member of the New Jersey community, or as a public 
servant.
    For the last year, she has run the Renew Program in our 
State to help ex-offenders who graduate from a program that 
requires them to attend 52 court sessions to become eligible to 
have their supervisory release reduced by a year. Judge Arleo 
oversees the program that involves intensive monitoring and the 
cooperation of attorneys and probation officers who select ex-
offenders still under court supervision. The fact is the 
program works. It reduces recidivism and helps qualify ex-
inmates to reintegrate into society and build a crime-free 
life.
    Clearly, Mr. Chairman, this is not someone who is just 
handing down decisions from the bench. She is involved in the 
judicial process from the beginning to the end.
    She has spent 14 years as a Federal magistrate judge in New 
Jersey after a decade of very involved State and Federal 
litigation. She is accomplished, successful, and I think that 
the Committee, upon your review, will agree with me and Senator 
Booker, who also supports this nominee, that she is eminently 
well qualified and the type of judge we want to see on the 
Federal courts.
    And with that, Mr. Chairman, I am happy to answer any 
questions. If not, I have a hearing on Iran that I will excuse 
myself to.
    Senator Blumenthal. You are excused. Thank you so much for 
being here. We really appreciate it. Thank you. And I know it 
means a lot to the nominees and their families, particularly to 
Ms. Arleo.
    If I could ask the nominees to please come forward and take 
your seats at the witness table. Let me just make a couple of 
introductory remarks, and then turn to Senator Grassley, if he 
has any.
    I cannot exaggerate the importance of the job that you have 
been nominated to fill. As a practicing attorney for many years 
and United States Attorney and the Attorney General of our 
State, I was in Federal court frequently, intensively, 
actively, and I know firsthand that you will be the voice and 
face of justice for countless people. There is always the right 
of appeal. People can always go to a higher court. But for many 
litigants, the result in your court will be the final outcome 
in their cases. When they seek justice, they will be turning to 
you to vindicate their rights. And that responsibility is truly 
awesome.
    Our responsibility in making sure that we confirm people 
who are truly qualified is profoundly significant, one of the 
most significant, in my view, that we have in the Senate of the 
United States.
    And so, first of all, let me thank you for your willingness 
to serve. People often do not appreciate the amount of work, 
the sacrifice that is required for this service on your part 
and on your family's part. So I thank your families as well.
    I am hoping that we can move expeditiously on these 
nominees. We have increasing cooperation across the aisle. I 
want to thank my colleague Senator Grassley for his 
cooperation. And I want to say a word about Victor Bolden 
because he comes from my State. I have great respect for the 
three other nominees as well, but I know Victor Bolden and have 
strongly supported and endorsed his nomination, not only 
because his previous service as corporation counsel and in his 
law firm and community activities has impressed me, but also he 
has the skill, temperament, and intellectual acumen for this 
job.
    My colleague Senator Murphy described very well his 
background, his qualifications in terms of his previous jobs, 
but he has really dedicated his legal career to public service, 
and he has fought and worked for the citizens of New Haven as 
well as Connecticut through his work to fulfill the promise of 
equal education in our Nation's schools as well as affirmative 
action and school desegregation cases. He is a dedicated and 
accomplished civil rights litigator, a compassionate, respected 
attorney. He has a strong commitment to the rule of law, and he 
has a keen and very impressive intellect.
    One of the things that has most impressed me about Mr. 
Bolden, and also about the other nominees, is the amount of 
support that he has received in Connecticut. We have a legal 
community, as you do in your States, I am sure, that knows each 
other and works with each other. And in Connecticut, Mr. Bolden 
has the highest respect in his profession. He is well liked and 
extraordinarily well respected, and I believe he will make an 
excellent judge. And I am pleased to welcome him as well as all 
of you here today. So thank you so much for participating in 
this hearing and for being willing to serve.
    And then I am going to ask you to be sworn. As is the 
custom of our Committee, all of our nominees are sworn. If you 
would please rise and raise your right hand. Do you affirm that 
your testimony today will be the truth, the whole truth, and 
nothing but the truth, so help you God?
    Judge Arleo. I do.
    Mr. Bolden. I do.
    Mr. Hale. I do.
    Mr. Stivers. I do.
    Senator Blumenthal. Thank you.
    I am going to introduce the other nominees as well, even 
though some of you have already received introductions from 
Senators.
    Ms. Arleo has served as a United States magistrate judge 
for the District of New Jersey for the past 14 years. She is 
nominated to serve as United States District Judge for the 
District of New Jersey, as you know. She was previously a 
partner at Tompkins, McGuire, Wachenfeld and Barry, and Barry 
and McMoran. She also served as a law clerk for Judge Marie 
Garibaldi on the New Jersey Supreme Court, and she received her 
bachelor's and master's degree from Rutgers University, her law 
degree summa cum laude from Seton Hall University School of 
Law.
    Mr. Hale served as United States Attorney for the Western 
District of Kentucky since 2010, and he was previously an 
Assistant U.S. Attorney for that same district for 4 years 
ending in 1999. He is nominated to serve again as U.S. District 
Judge for the Western District of Kentucky, and he previously 
practiced as a partner and counsel at Reed, Weitkamp, Schell 
and Vice for 11 years. Mr. Hale received his law degree from 
the University of Kentucky Law School in 1992 and his 
bachelor's degree from Vanderbilt University in 1989.
    Mr. Stivers has spent his entire legal career at Kerrick, 
Bachert and Stivers. He began his career as an associate, 
became partner in 1990, and is now nominated to serve as U.S. 
District Judge also for the Western District of Kentucky. He 
received his law degree from the University of Kentucky in 1985 
and his bachelor's degree from Eastern Kentucky University.
    Thank you all, and I would invite each of you to make a 
brief opening statement. You can introduce the family members 
who are with you today and make whatever other remarks you 
would like to do. Thank you. Go ahead, Ms. Arleo.

         STATEMENT OF HON. MADELINE COX ARLEO, NOMINEE
      TO BE DISTRICT JUDGE FOR THE DISTRICT OF NEW JERSEY

    Judge Arleo. Thank you, Senator, and thank you for 
convening today's hearing. A special thank you to Senator 
Menendez for his kind remarks, and thank you to President Obama 
for the honor of this nomination.
    I have with me a number of family members and friends from 
New Jersey: my husband, Frank Arleo, who, like me, is a New 
Jersey lawyer; my daughter, Alexandra, who is 16 and will be a 
junior at Mount St. Dominic Academy in Caldwell, New Jersey; my 
son, Peter, who is 14 and will be a freshman at Seton Hall Prep 
in New Jersey.
    I also have with me my cousin, Drew Niekrasz, who I had the 
privilege of swearing in as chief of police of Bayonne, New 
Jersey, just last week; my aunt, Alice Niekrasz; my uncle, 
Frank Niekrasz, who served this country proudly in World War II 
in the United States Navy, and tomorrow is his 94th birthday, 
and I am so grateful that he could be with me today.
    Also with me is a number of friends, my staff, my excellent 
staff; my law clerk--Amy Anderson, my deputy clerk; and Amanda 
Lauffer, my law clerk; as well as my friend Tom Scrivo, one of 
my closest colleagues from law school.
    I saved the best for last: my mother, Elizabeth Cox, who 
has supported me throughout my life. And I would like to just 
acknowledge the presence of my father, who passed away some 
time ago, but I know he is here with me in spirit.
    I think that is everyone, and I would also like to thank 
all the members of our Federal family and friends who are 
watching at home on the Webcast.
    Thank you.
    [The biographical information of Judge Arleo appears as a 
submission for the record.]
    Senator Blumenthal. Thank you.
    Mr. Bolden.

STATEMENT OF VICTOR ALLEN BOLDEN, NOMINEE TO BE DISTRICT JUDGE 
                FOR THE DISTRICT OF CONNECTICUT

    Mr. Bolden. Thank you, Mr. Chair, and thank you, Senator 
Blumenthal, for your very kind remarks on my behalf.
    Senator Blumenthal. I think your microphone is off. There 
you go.
    Mr. Bolden. Thank you, Mr. Chair, and thank you, Senator 
Blumenthal, for your kind remarks and support of my nomination 
as well as Senator Murphy. I want to also thank the President 
for nominating me.
    I do have the pleasure and honor to have my family here. 
First and foremost, my wonderful son, Caleb, is here, who is 11 
years old. Caleb, to actually be here, missed an opportunity to 
be in the Ranking Member's great State of Iowa to compete in an 
athletic event to be here in support of me, and I appreciate 
that very much.
    My parents, the Reverend Isaac and Mary Bolden, are here 
today. My siblings are here: my brother, Isaac, III, my sister, 
Alecia; my other sister, Veronica. My sister, Alecia, and her 
three children are here as well: William, Aviana and Karina. 
And my sister, Veronica, is here with her husband, Charlie, and 
their two daughters, Ella and Alana.
    Unfortunately, my sister Alecia Goode's husband, William, 
could not be here. He has been home recovering from an illness.
    I also have my uncle, Willie Harris, my mother's brother, 
who has also been a long supporter and helped throughout the 
course of my life; and his son, Thomas Hardin.
    I am very, very grateful to be here, and I appreciate the 
opportunity this Committee has provided me.
    [The biographical information of Mr. Bolden appears as a 
submission for the record.]
    Senator Blumenthal. Thank you very much.
    Mr. Hale.

 STATEMENT OF DAVID J. HALE, NOMINEE TO BE DISTRICT JUDGE FOR 
                THE WESTERN DISTRICT OF KENTUCKY

    Mr. Hale. Thank you, Mr. Chairman and Ranking Member 
Grassley. I want to say a thank you to the Committee for having 
us here today. I look forward to the opportunity to be here and 
to answer your questions.
    I want to begin by thanking Senators McConnell and Paul for 
their support and Senator Paul's kind words this morning.
    Also, I would like to thank the President for the 
nomination and for the opportunity to serve as United States 
Attorney for the past 4 years.
    I have with me my family. I will begin with my wife of 25 
years, Ann. She is a registered nurse in Louisville. And our 
kids are with us here today. My daughter, Caroline, is 19 and 
will be beginning her sophomore year of college this fall. Our 
son, John David, is 17 and in a couple of weeks he will start 
his senior year of high school.
    My parents are with us as well. My mother, Brenda, is a 
retired registered nurse in Louisville, and my father, David, 
is a banker in Louisville.
    Again, thank you, Mr. Chairman.
    [The biographical information of Mr. Hale appears as a 
submission for the record.]
    Senator Blumenthal. Thanks, Mr. Hale.
    Mr. Stivers.

 STATEMENT OF GREGORY N. STIVERS, NOMINEE TO BE DISTRICT JUDGE 
              FOR THE WESTERN DISTRICT OF KENTUCKY

    Mr. Stivers. Thank you, Chairman Blumenthal, Ranking Member 
Senator Grassley. I would like to also thank the entire 
Judiciary Committee for their diligent work in reviewing my 
submissions, and I would like to express my sincere thanks to 
Senator McConnell and Senator Paul for their recommendation and 
for their support throughout this process. And certainly I 
would like to thank President Obama for his confidence in my 
qualifications to nominate me to this important job.
    I have got some family and friends here that I would like 
to introduce as well, first, my wife and three daughters, whose 
love and respect are my primary motivations in life.
    My wife, Alicia, whose father was a county attorney in 
Bracken County in northern Kentucky for over 30 years, and 
whose grandfather was a Commonwealth's attorney who argued a 
case in front of the U.S. Supreme Court.
    My daughters: Elizabeth, who is in her final year of 
pharmacy school at the University of Kentucky; and my daughter, 
Laura, who is about to start her final semester of accounting 
at Western Kentucky University; and my youngest daughter, 
Lillie, who just graduated from high school and is getting 
ready to enroll--start classes at the University of Kentucky in 
the fall. I think that Lillie may actually be the fourth 
generation of attorneys in our family.
    Also with me today is my sister, Lynne Stivers Smith, who 
is down from Lancaster, Pennsylvania; and my two dear friends, 
Rob Porter and Bruce Fane, who have come up from Bowling Green, 
Kentucky, for the hearing today.
    I would also like to recognize, if I could, some folks who 
could not be here today but are watching the Webcast: my 
parents, Ken and Susie Stivers, who are watching in 
Elizabethtown, Kentucky, and all my friends and colleagues at 
Kerrick, Bachert and Stivers, who are watching in the upstairs 
conference room of our Bowling Green office.
    Finally, I would like to recognize three family members who 
have been an important influence on me in my legal career: 
first, my grandmother, Lillian Parish, who was a court reporter 
in the Hardin County court when I was growing up, and her 
stories of courtroom drama and humor are still among my 
earliest memories. And I know Lillie is here in spirit today.
    I also would like to thank my two uncles, Tom Cooper and 
Bill Cooper. Tom is an accomplished trial attorney in 
Lexington, Kentucky, with the firm of Landrum and Shouse, and 
Bill is a former Hardin circuit court judge who served 10 years 
as a Justice on the Kentucky Supreme Court. I would like to 
thank Tom and Bill for acting as role models and mentors to me 
over the years.
    Thank you.
    [The biographical information of Mr. Stivers appears as a 
submission for the record.]
    Senator Blumenthal. Thank you all for your opening remarks. 
I know that your families whom you have introduced are very 
proud of you today.
    I am going to put in the record a statement from Senator 
Rockefeller in support of Mr. Hale's nomination. Evidently, he 
worked with your dad when your dad was banking commissioner and 
he was Governor of West Virginia. So that will go in the 
record, without objection.
    [The prepared statement of Senator Rockefeller appears as a 
submission for the record.]
    Senator Blumenthal. And I am going to turn to Ranking 
Member Senator Grassley because he has another commitment. I 
will have my questions after his. Senator Grassley.
    Senator Grassley. Thank you for your courtesy, and for all 
the Members, we do not have a lot of time to ask each of you 
questions, so on the Republican side, you will probably get 
some questions in writing that we would appreciate your 
answering before your nomination comes before the Committee.
    I enjoy asking nominees about something they wrote a long 
time ago to see if they share the same view now, and Mr. Bolden 
had the prestige of having a Harvard law article written. That 
is pretty good that you could do that. You wrote something 
called, ``Judge not that you may be not judged.'' In that 
article, which reads like a script for a play, you wrote 
imaginary dialogue between certain deceased Supreme Court 
Justices and God, and the conversations do not turn out too 
well for the Justices.
    [Laughter.]
    Senator Grassley. As I am sure you remember, you had God 
cross-examine the Justices about some of their opinions. After 
God finds fault with them, he condemns them to justice, as you 
put it, ``to spend eternity in Hell.''
    [Laughter.]
    Senator Grassley. Now, as I read your article, it quickly 
became clear that the God character was actually a vehicle for 
your own views. I hope I have interpreted that right. Looking 
back, I am sure you intended for part of the article to be 
amusing and to read like a parody. But you do get serious at 
the end.
    What I would discuss specifically is what you do at the end 
of the article. That is where you describe four principles 
which you argue define proper judicial decisionmaking. You 
write that you intended those principles to be a ``visionary 
statement of how judges ought to look at themselves and how 
they consider deciding cases.'' I think that is important 
because we usually do not encounter nominees who have 
previously expressed their views on judging in such a concrete 
way. So I would ask you questions about those principles.
    Your first principle is, ``If the decision affects 
society's dispossessed and oppressed, the decision must be made 
in a way that eases their burden and does not add to their 
woes.'' Would you adhere to that if you are confirmed?
    Mr. Bolden. Senator, thank you very much for the question 
and the opportunity to address this issue. Let me say that I 
can assure you that, if I have the opportunity to be confirmed 
and serve as a judge, that my decisionmaking will be based 
solely on the applicable law and the facts and evidence before 
me, not based on my musings in fictional form written when I 
was a law student. It was before I had practiced law and had 
the various experiences I have today that I think make me 
qualified to be a judge.
    Senator Grassley. It could be that the next three points 
you might give the same answer, but let me ask anyway.
    The second principle, that ``the judge must be 
considered''--I will start over again. ``The judge must 
consider how she or he would want to be treated if they were in 
the same circumstances as the person they were about to affect 
with their decision.''
    Do you still think that way?
    Mr. Bolden. My answer would be the same, that, you know, if 
confirmed to be a judge, my decisions would be based on the 
applicable law and the facts, not based on the musings I had 
almost a quarter century ago.
    Senator Grassley. Okay. Let me read the third principle. 
``A judge has to be held accountable when their talent is not 
used to restructure a legal system gone awry if that is what 
needs to be done.'' I just would like to have you explain that 
statement.
    Mr. Bolden. I am sorry?
    Senator Grassley. Should I read it again?
    Mr. Bolden. Yes, please. Would you?
    Senator Grassley. ``A judge has to be held accountable when 
their talent is not used to restructure a legal system gone 
awry if that is what needs to be done.''
    Mr. Bolden. Again, Senator, I appreciate the opportunity to 
sort of clarify that what I would--if confirmed, my approach to 
the law, my approach to decisions before me would be based on 
the law and the facts, not based on thoughts I had when I was a 
law student nearly a quarter century ago.
    Senator Grassley. Okay. And the last principle: ``Judges 
must be mindful of the fruits or consequences of their 
decisions.''
    Mr. Bolden. Senator, I think the answer would be the same, 
that my approach as a judge, if confirmed, would be to apply 
the binding precedent to the facts in the case as they come 
before me, not based on musings I had as a law student.
    Senator Grassley. Then I would have one question for Mr. 
Stivers, and the other two people I will submit questions for 
answers in writing.
    Mr. Stivers, in 2011, you wrote an amicus brief on behalf 
of some of Kentucky educational institutions and nonprofit 
organizations for a case before Kentucky's something 
challenging gun ownership rights. In the brief, you argued that 
State colleges could ban gun possession by college employees on 
campus. Part of your argument was that college campuses were 
``sensitive places that could be regulated to ban guns.'' The 
State high court held that the Second Amendment allowed the gun 
possession so long as the owner had a valid concealed carry 
permit and properly secured the gun in his home.
    So my single question: In light of that Kentucky case and 
the Supreme Court's recent Second Amendment cases Heller and 
McDonald, could you discuss how you understand the scope of the 
Second Amendment with respect to possession of firearms?
    Mr. Stivers. Yes, sir. Thank you, Senator. Of course, the 
arguments in my brief on behalf of Western Kentucky University 
were as an advocate on behalf of my client and did not reflect 
my personal views. If confirmed, any case I dealt with with 
regard to the Second Amendment I would follow Heller and 
McDonald.
    Senator Grassley. Thank you.
    [The questions of Ranking Member Grassley appear as 
submissions for the record.]
    Senator Grassley. Thank you, Mr. Chairman, for your 
courtesy. Thank you.
    Senator Blumenthal. Thanks very much, Senator Grassley.
    Let me ask a question of each of you, and it is a very 
general question, but I think it may elicit views and 
information about your qualifications that are of value to our 
Committee.
    Let me ask each of you what you think in your experience is 
the most important qualification or preparation for becoming a 
United States district court judge, and, likewise, what you 
wish you might have done that would have been even a better 
preparation. And if you are confused by the question, you 
should not hesitate to tell me. But let me begin going left to 
right, if I may--or my left to right, your right to left.
    Judge Arleo. Thank you, Senator. I have had the privilege 
of serving as a magistrate judge now for almost 14 years, and I 
have learned many things. The most important is that respect 
for the rule of law. Judges must be fair and impartial at all 
times, carefully scrutinizing the record, the evidence, and 
applying the settled law of the circuit, in my case the Third 
Circuit, and the Supreme Court. That to me are the most 
important qualities of a judge, and if I have the honor of 
being confirmed, I will continue to work toward them.
    If I had to think of one thing I could change about my 
legal career, that I would add that would perhaps make me a 
stronger candidate, it would have been to have spent time at a 
prosecutor's office or perhaps a public defender's office, 
perhaps a U.S. Attorney's office. And although I do not have 
that experience, I have relied on advice from colleagues and 
taken the opportunity to learn the law as best I can on the 
criminal side. And that is how I--that would be the one thing I 
would change if I could.
    Thank you.
    Senator Blumenthal. Thank you.
    Mr. Bolden.
    Mr. Bolden. Thank you, Senator. I think the most important 
qualities of a judge is that ability to listen impartially and 
fairly to the cases that come before you and to apply the law 
likewise, to apply the binding precedent, and in such a way 
that it shows a respect for the rule of law so that either side 
the party before you has confidence that justice has been 
served, whether or not they agree with the ruling or not. And I 
think the concept of the rule of law is so vital to our society 
and making sure that people have confidence that the law works 
for everyone and works for everyone in the same way I think is 
critical in terms of being a judge. And I am fortunate to have 
had a variety of experiences to be on different sides of a 
variety of issues, having represented employers and employees, 
having been on the other side suing a municipality and 
representing a municipality, that you begin to have a real 
respect for the various roles that people play in life, public 
safety officers and, you know, the day-to-day work that people 
go through. And I think that that experience in that respect I 
think hopefully will bode me well if I am fortunate enough to 
be confirmed.
    I think there are always more experiences I would wish to 
have had, and perhaps more in the criminal law area might have 
been something that would actually--would also serve me well on 
the bench. But I am fortunate for the experiences that I have 
had, and I believe they will serve me well.
    Senator Blumenthal. And an experience that you wish you had 
had that you did not?
    Mr. Bolden. Yes, I was going to say, more in the area of 
criminal law, I would say.
    Senator Blumenthal. Thank you.
    Mr. Hale.
    Mr. Hale. Thank you, Mr. Chairman. My answer will sound 
similar. I think that the commitment to impartially apply 
precedent and law is critically important. I think treating all 
litigants fairly, allowing a full hearing, is also critically 
important to a judge's service.
    I have been very fortunate to have had the career 
experiences that I have had, and in particular these last 4 
years to serve as United States Attorney. And that has given me 
the ability to appreciate ever so more the role that our 
Federal courts play in our justice system.
    And I suppose if I would look to one experience, I have no 
insight into the inner workings of the court because I was 
never a judicial clerk, and so I think that folks who are 
afforded that opportunity sometimes have a bit of an insider 
view. But, again, I am very fortunate to have served as an 
Assistant and as the U.S. Attorney.
    Thank you.
    Senator Blumenthal. And is there an experience that you 
wish you had had? I am not sure whether you identified that?
    Mr. Hale. Yes, sir. If--I would--I have not had the 
opportunity to be a judicial clerk, and so----
    Senator Blumenthal. The role of judicial clerk would be one 
you----
    Mr. Hale. That would be one, yes.
    Senator Blumenthal. Thank you.
    Mr. Hale. Thank you.
    Senator Blumenthal. Mr. Stivers.
    Mr. Stivers. Thank you, Senator Blumenthal. I would say my 
best qualification is the fact that I have tried cases in front 
of juries, in front of judges, for the last 29 years, and 
through each of those cases you learn a little bit from the way 
judges handle things, and so you take a little piece from every 
case, I think, as you stack up your experience.
    The one area that I wish I could put down on my resume as 
being accurate would be having some criminal law, which I do 
not have. However, I do have an interest in the human drama 
that is inherent in all criminal cases. I also had an 
opportunity to serve as the foreman of the Federal grand jury 
in Bowling Green for a period of 18 months, which was very 
enlightening with regard to the indictment process and the law 
enforcement efforts in our area. Sadly, also I learned the 
extent of the methamphetamine problem in western Kentucky.
    But with regard to the criminal law, I have read the Rules 
of Criminal Procedure. I have had an opportunity to sit in on 
several hearings and dockets over the last couple of months. 
And if confirmed, I would work hard to familiarize myself with 
the issues and the procedures of criminal cases and bring 
myself up to speed.
    Senator Blumenthal. Thank you. I have a few more questions, 
but I am going to defer to Senator Coons.
    Senator Coons. Thank you, Senator Blumenthal. And my 
apologies. We have three different Committees conducting 
hearings at the same moment, so you may see some Senators come 
and go as they go to different hearings.
    I just would be interested if each of you would briefly 
speak to the question of, as a judge, how would you ensure fair 
access to our legal system? How would you be certain that the 
doors of the courthouse are open to all who might seek justice?
    Judge Arleo. Thank you, Senator. I have had the privilege 
for the last 14 years of serving as a magistrate judge, and one 
of my most important functions is to make sure that every 
person who comes in the courtroom, whether they are pro se or 
they are a multi-million-dollar corporation, has an opportunity 
to be heard, to be respected, to be listened to, and to be 
treated equally.
    If I have the privilege of being confirmed to the United 
States district court, I will continue to treat all litigants 
fairly and make sure that they all have access to the Federal 
courts.
    Senator Coons. Thank you, Your Honor.
    Mr. Bolden.
    Mr. Bolden. Yes, thank you very much for the question, 
Senator. I agree very much with Judge Arleo. The issue of 
respect and how you sort of send a message of how you treat 
people I think goes a long way to letting people know that the 
doors of justice are open and that you will be treated fairly 
once you come there.
    Senator Coons. Thank you.
    Mr. Hale.
    Mr. Hale. Yes, sir, Senator, I would echo the comments of 
my fellow nominees, that it is incredibly important to treat 
all litigants fairly, large or small, and impartially, to 
ensure equal access and equal treatment.
    Senator Coons. Mr. Stivers, any difference? Anything you 
would like----
    Mr. Smith. Honestly, just that I would echo the comments 
from my fellow nominees.
    Senator Coons. Thank you.
    Mr. Bolden, if I might, in the Mount Holly case, you 
appeared on a brief of several city governments which argued 
that local governments and constituents are benefited, not 
burdened, by the requirement to avoid unnecessarily 
discriminatory housing policies. Could you just elaborate on 
that for me?
    Mr. Bolden. Yes, Senator, and thank you for the question. 
That was a brief that was done on behalf of the city of New 
Haven, my client, and was done in conjunction with other 
governmental entities. And I think that the fundamental point 
was that--and it actually goes back to your last question in 
terms of access to justice--is that when governments make sure 
that people feel they are being treated fairly and take steps 
to treat people fairly, that it is actually a beneficial thing 
for everyone.
    Senator Coons. If I might, I think it is particularly 
important that a judicial candidate demonstrate the ability to 
be a balanced, fair-minded, consistent, yet open to changed 
facts or new ideas, and your representation in the Ricci 
firefighter discrimination case and in the Heller and McDonald 
Second Amendment cases have drawn some questions. And in my 
view, in each case you succeeded in representing your client's 
position zealously, and yet ultimately did not prevail, and 
then demonstrated an ability to respect and abide by the 
Court's ruling, which I think is an important piece of judicial 
temperament. In your case, in particular the fact that Frank 
Ricci, your lead adversary for 6 years in the Ricci case, 
submitted to this Committee a letter of support speaks volumes, 
I think, to your character and to your appropriateness for the 
bench.
    If you will forgive me, I have another hearing. Thank you, 
Mr. Bolden. Thank you to all four of our nominees. And thank 
you to your families who are enduring this interesting 
nomination hearing.
    Thank you, Senator Blumenthal, for chairing today. Thank 
you very much.
    Senator Blumenthal. Thank you, Senator Coons.
    Let me just pursue the line of questioning that Senator 
Coons began about the Ricci v. DeStefano case, if I may, Mr. 
Bolden. As he pointed out, you represented the city of New 
Haven in that case when it declined to certify the results of a 
promotion exam because certification would have led to no 
African American firefighters working for the IT of New Haven 
to be promoted. You represented your client in trying to 
persuade the Supreme Court to rule that New Haven did not have 
to certify the exam results. The Supreme Court ruled the other 
way. You played an active role then in implementing the Supreme 
Court's decision, in fact, even going beyond what the Court 
demanded in an effort to comply with the spirit as well as the 
letter of the Court's ruling. And like other nominees here 
today, you have indicated your allegiance to the rule of law, 
which you really exemplified in implementing the Supreme 
Court's decision.
    Did you find it hard to implement the Supreme Court's 
decision that rejected your position during the litigation? You 
were responsible, in effect, for implementing a U.S. Supreme 
Court decision from the highest court in the land that was in 
conflict with the position you had advocated. Was that a 
difficult work for you to do? And could you talk a little bit 
about how it indicates your allegiance and fidelity to the rule 
of law?
    Mr. Bolden. Thank you, Senator, for the question. The 
answer is no, it was actually--it was very easy. The Supreme 
Court had spoken. The city had an obligation to comply with the 
law. And I honestly believe that if the Supreme Court has 
spoken and the law is very, very clear, it is important 
certainly for a government to send the message that it is going 
to comply with the law, to send the message that it respects 
the law, to send the message that what the Supreme Court has 
said is what the city is going to comply with. And we moved 
with as much dispatch as possible to make sure the Supreme 
Court order was complied with.
    Within a week of when the district court order came back 
clarifying that the city needed to certify the exams and 
promote, we were able to promote. I mean, we actually got the 
order the Tuesday before Thanksgiving, and by the following 
friday, everyone had been promoted.
    And I am proud of that, and I am proud of that because it 
was important. And that day when we certified the exams that 
allowed them to be promoted, I said it was a great day for the 
rule of law, and I meant it. And it was important for the city 
to see that, because after you have a case that is contentious, 
because as a Nation we have a variety of views and we may be 
divided in a number of ways, but we should be united around the 
law and the importance of following the law.
    Senator Blumenthal. Thank you.
    Mr. Stivers, you answered very well to Senator Grassley's 
question about the case that you did involving the Second 
Amendment issue that was raised in that litigation. And I am 
not asking you what your personal views are on the Second 
Amendment or related issues, but I have no doubt that in the 
course of 29 years of litigation you represented clients whose 
views may not have coincided with your own, either on politics 
or even on the merits of the case that you were litigating.
    Could you talk a little bit about the duty of a lawyer as 
an advocate to represent the views of clients as zealously and 
vigorously as possible, whether or not you agree or disagree 
with them?
    Mr. Stivers. Yes, sir. I think the rule actually is similar 
whether you are an attorney representing a client as it would 
be for a judge, and that is to set aside your personal beliefs. 
Your duty as an attorney is to zealously represent your client 
and to study the law, study the facts, and make sure that you 
identify the best arguments that you can in favor of their 
position. It is not your position. It is their position. And 
that is what I have done, and in that one case that is what I 
was doing.
    As a judge, by contrast, your function is to not act as an 
advocate, of course. You are supposed to be impartial. But the 
similarity is you are supposed to set aside your personal 
beliefs and to decide the case solely on the merits of the case 
presented to you.
    Senator Blumenthal. Thank you.
    Mr. Hale, you have served as a prosecutor and as the chief 
Federal prosecutor of your district, and I know from having 
been a prosecutor that we could be as impassioned about those 
cases as any civil lawyer could be about the merits of his or 
her case. And I would like to ask you whether you would have 
difficulty dismissing a case if you found that the Government 
had failed to prove a critical element of the crime as required 
under the United States statutes?
    Mr. Hale. Thank you, Mr. Chairman. No, I would follow the 
law, and if it were to prescribe a dismissal for failure to 
present adequate evidence, that is the ruling that I would 
give.
    Senator Blumenthal. I thank you all for answering my 
questions. If there is anything that any of you wish to add, I 
would be happy to hear from you. That exhausts our questions 
this morning.
    We are going to have the record stay open for 10 days, and 
you will probably be getting--we will make it 1 week. That may 
save you some questions. The record will be open for 1 week, 
and you may receive, as Senator Grassley indicated, some 
written questions from my colleagues.
    If any of you has anything more to say, I would be happy to 
hear from you.
    [No response.]
    Senator Blumenthal. If not, the record will be open for 1 
week. Senator Grassley indicated to me that he has some remarks 
that he wanted to be made part of the record, which I will do 
without objection.
    Senator Blumenthal. This hearing is adjourned.
    [Whereupon, at 10:31 a.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
